<html>
<title> - [H.A.S.C. No. 112-139]THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-139]
 
              THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 11, 2012


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
75-150                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            HANK JOHNSON, Georgia
ALLEN B. WEST, Florida               KATHLEEN C. HOCHUL, New York
TRENT FRANKS, Arizona                RON BARBER, Arizona
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      James Mazol, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, July 11, 2012, The Future of U.S. Special Operations 
  Forces.........................................................     1

Appendix:

Wednesday, July 11, 2012.........................................    27
                              ----------                              

                        WEDNESDAY, JULY 11, 2012
              THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     1
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Davis, Dr. Jacquelyn K., Executive Vice President, Institute for 
  Foreign Policy Analysis........................................     8
Lamb, Dr. Christopher J., Distinguished Research Fellow, Center 
  for Strategic Research, Institute for National Security 
  Studies, National Defense University...........................     6
Robinson, Linda, Adjunct Senior Fellow, Council on Foreign 
  Relations......................................................     3

                                APPENDIX

Prepared Statements:

    Davis, Dr. Jacquelyn K.......................................    74
    Lamb, Dr. Christopher J......................................    41
    Langevin, Hon. James R.......................................    32
    Robinson, Linda..............................................    33
    Thornberry, Hon. Mac.........................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    85
              THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Wednesday, July 11, 2012.
    The subcommittee met, pursuant to call, at 4:09 p.m. in 
room 2118, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order. We greatly 
appreciate all your patience. The bad news is we made you wait. 
The good news is we won't be interrupted any further by votes, 
but I very much appreciate you bearing with us.
    First, I would ask unanimous consent that nonsubcommittee 
members, if any, be allowed to participate in today's hearing 
after all subcommittee members have had an opportunity to ask 
questions.
    Is there objection?
    Without objection, it is so ordered.
    In the interest of time, I am going to also ask unanimous 
consent that my opening statement be submitted as part of the 
record and that the full written testimony of all our witnesses 
be submitted as part of the record, but let me also say I 
really appreciate the written statements that each of you 
prepared. They were very helpful with lots of perspective but 
also concrete, specific thoughts about what we need to watch 
for, and that is exactly what we wanted to talk about in this 
hearing, so I appreciate the excellent written statements that 
you all have provided.
    I would yield to Mr. Langevin for any comments he would 
like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 31.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman, and thanks to our 
witnesses today for testifying before us today. Our Special 
Operations Forces are some of the most capable personnel in 
high demand throughout our military, as we all know. For a 
fraction of the Department of Defense's total budget, SOF 
[Special Operations Forces] provides an outsized return on our 
investment.
    For the last decade, the bulk of the capabilities have been 
greatly absorbed by necessities in Iraq and Afghanistan, but 
now with our combat troops out of Iraq and our drawdown in 
Afghanistan well underway, it seems appropriate to consider 
what the future holds for SOF.
    While SOF has been an integral part of conflicts in the 
CENTCOM [U.S. Central Command] area of responsibility, I think 
it is fair to say that some of the other combatant commands 
have had to accept compromises in their SOF support for some 
time now. As Admiral McRaven at U.S. Special Operations Command 
and the rest of the Department of Defense goes through a 
rebalancing process, I believe it is critical for those of us 
in Congress to make sure SOF is properly manned, trained, and 
resourced for future demands.
    This is particularly important because Special Operations 
Forces are perhaps best known for their direct action missions, 
the bin Laden raid being a prime example. But their broad set 
of missions range from unconventional warfare to foreign 
internal defense to civil affairs and information operations, 
among others, and in recent years, some of those skills may 
have been atrophied. Put another way, our Special Operations 
Forces are critical to our efforts to build the capacity of our 
partners around the globe, enabling those partners to apply 
local solutions to local security problems long before they 
become a regional or global issue.
    So we have many issues to consider to ensure that our 
Special Operations Forces maintain their historic reputation as 
agile and highly effective national security assets, and I 
certainly look forward to hearing our witnesses' views on how 
to ensure that we continue to populate our Special Operations 
Forces with superior quality men and women who are highly 
trained, properly equipped, and granted authorities needed to 
continue their stellar contributions to our national security, 
particularly given the highly uncertain threat landscape of the 
future.
    So I agree with the chairman.
    I appreciate the statements that each of you have prepared. 
I look forward to your testimony and look forward to getting to 
questions.
    But, Mr. Chairman, I especially want to thank you for 
holding this hearing, and I certainly look forward to an 
interesting discussion.
    With that, I yield back.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 32.]
    Mr. Thornberry. I thank the gentleman.
    We now turn to our witnesses, Ms. Linda Robinson, Adjunct 
Senior Fellow, Council on Foreign Relations; Dr. Christopher 
Lamb, Distinguished Research Fellow at National Defense 
University; and Dr. Jacqueline Davis, Executive Vice President 
for the Institute for Foreign Policy Analysis.
    Again, as I mentioned, your full statement will be made a 
part of the record. We would invite you all to summarize as you 
see fit. We will run the clock, you know, we are not going to 
cut anybody off, but just as a guide for your summary, and then 
we will turn to questions.
    So, Ms. Robinson, thank you for being here. Please proceed.

STATEMENT OF LINDA ROBINSON, ADJUNCT SENIOR FELLOW, COUNCIL ON 
                       FOREIGN RELATIONS

    Ms. Robinson. Thank you very much, Chairman Thornberry, 
Ranking Member Langevin, members of the subcommittee, thank you 
very much for the opportunity to appear before this 
distinguished panel.
    The purpose of my testimony, of course, is to provide my 
thoughts on the future of Special Operations Forces. You have 
my full bio, but just to note, I have spent 27 years 
researching various conflicts, and the last 13, much of that on 
Special Operations Forces, both in the field and at 
headquarters. I am currently at the Council on Foreign 
Relations conducting a study on the future of Special 
Operations Forces and also writing a book on SOF in 
Afghanistan. I spent about 22 weeks of the last 2 years in 
Afghanistan, and the particular focus of my research has been 
the Village Stability Operations/Afghan Local Police 
initiative, which is, as you may know, the largest SOF 
initiative anywhere that is currently under way.
    I will address three topics: The balance between the direct 
and indirect approaches; the needed changes in authorities, 
resourcing and force structure; and other changes to U.S. 
Special Operations Command and the interagency process.
    As noted, in the past decade, Special Operations Forces 
have developed a world-class capability in the direct approach 
or surgical strike capability. I see two areas in which 
improvement might be considered in terms of balancing the 
direct and the indirect. At the policy level, consideration 
could be given for an established standard procedure for 
balancing the direct and indirect and, in particular, ensuring 
that all second- and third-order consequences are weighed in 
the application of the direct approach.
    I would note that both the current and former commanders of 
U.S. Special Operations Command have repeatedly said in 
testimony before this committee and elsewhere that the direct 
approach only buys time for the indirect approach to work. So 
this is a suggestion of actual mechanisms that can be 
considered to achieve that appropriate balance.
    The second consideration that I would offer is that intra-
SOF unity of command offers yet another mechanism for achieving 
that balance between direct and indirect, and I would note that 
in Afghanistan at this time, there is a Special Operations 
Joint Task Force, called the SOJTF, that is taking command of 
all SOF elements for the first time in the war, so we have a 
very important milestone for this intra-SOF unity of command 
that I think will yield valuable lessons. And one of the hoped-
for outcomes is that there will be more synergy achieved in the 
efforts of the various SOF, so-called SOF tribes.
    I would now like to turn to the indirect approach. I think 
that is the area in which, that should be the primary area of 
focus for improvements at this time. In my assessment, the 
indirect approach is still suboptimized and the forces 
primarily charged with carrying it out are not properly 
resourced, organized, or supported, so I will just note briefly 
that there are five improvements that I would recommend to 
optimize the indirect approach. They are detailed at length in 
my testimony, but I will just outline them briefly here.
    First, I think greater clarity is needed as to what the 
indirect approach is and part of the lack of clarity inherent 
in the vagueness of the term indirect approach. It also is, at 
its core, in my opinion, partnered operations. And SOF uses a 
variety of partners, and it conducts a variety of operations, a 
variety of activities as part of the indirect approach. So I 
think a great deal of effort is needed to clarify this rather 
complex term and what is meant by it. Doctrine, education, and 
outreach are all components of clarifying what the indirect 
approach is and how it is applied.
    Secondly, there is a need to create first-class Theater 
Special Operations Commands, which are currently the subunified 
command of the Geographic Combatant Commands. These commands, 
in my view, have not been optimized, and they require highly 
qualified regional expertise. They require human and technical 
intelligence specialists, expert planners, and SOF operators, 
who serve extended tours there and receive career incentives 
for serving at TSOCs [Theater Special Operations Commands]. The 
TSOCs are by doctrine the C2 [command-and-control] node that is 
charged with carrying out SOF operations in-theater and 
advising the Geographic Combatant Commander. That doctrinal 
role is currently not being fulfilled to its fullest, and in my 
view, the TSOCs should be the epicenter for SOF operations, 
should be seen as the most desirable assignment, and it doesn't 
necessarily mean numbers of personnel, although I have provided 
you the breakdown for SOF personnel assigned to the TSOCs. It 
is quite below other headquarter elements at present, but I 
would like to foot-stomp the idea is the quality; you need the 
right expertise there and your top quality people there.
    Thirdly, and this is very important, I believe that SOCOM 
needs to reorient to prioritize support for the TSOCs and the 
indirect approach in general, and this includes making a 
priority out of resourcing, coordinating, and support for and 
during SOF campaigns. There is an advocacy role. There is a 
role for them to assist in the design and implementation of SOF 
campaigns. SOCOM's [U.S. Special Operations Command] own J-code 
staff section should prioritize the requirements, planning, and 
resource support. There may be a call for a dedicated 
organization within SOCOM headquarters to do this, but I would 
caution that you don't want it to become an ancillary 
appendage. I see this as very much a primary role that SOCOM at 
large should play.
    Finally, SOCOM might even consider detailing some of its 
own personnel, which is now 2,606. It is a very large command. 
Some of those might be temporarily or permanently assigned to 
TSOCs.
    Fourth, funding authorities for SOF to carry out sustained 
indirect campaigns. This is a very essential, if complex, area. 
Indirect campaigns can only be implemented over a number of 
years if they are supported by predictable funding, and the 
three hallmarks I think of what is needed in funding 
authorities is multiyear funding, funding for SOF training 
beyond just military forces, and assistance that goes beyond 
counterterrorism to cover a range of security and stabilization 
missions.
    The State Department's role has been embraced by SOCOM. 
They have the duty to ensure that all security assistance is in 
line with U.S. foreign policy goals, and of course, in the 
authorities, their reporting requirements, oversight, and Chief 
of Mission approval are already provided. What I think is 
missing is sufficient agility in the review and approval 
processing. Oftentimes that can take up to 2 years, and that is 
a very long lead time for the SOF campaign to get under way.
    Finally, I think what is needed in the fifth category is 
more flexible combinations of Special Operations and 
conventional forces so that they can carry out indirect 
campaigns both in a small footprint format in more places but 
also for the occasional large-scale operation that may be 
needed, and to wit, in Afghanistan now, there are two infantry 
battalions assigned to SOF to carry out the Village Stability 
Operations, and that is I think one useful example. But what is 
needed for some of these small footprint campaigns is even 
smaller units or even individuals, and that is very difficult 
under the current force generation models for the Army, in 
particular, to supply those needed capabilities. I would note, 
however, that people are at work on trying to provide more 
flexible combinations and also considering a blended command 
that may be useful as a standing structure.
    Finally, I would like to offer my view of some of the 
principles that I think should guide assessment of the current 
SOCOM proposals that are under discussion now. As you can tell, 
I am a very strong advocate that SOCOM should become much more 
aggressive about supporting the Theater Special Operations 
Commands, and I believe that should be one of the guidelines.
    The second guideline is that the Geographic Combatant 
Commands should become more rather than less inclined to use 
the TSOC, whatever solution is applied. So with those two 
principles in mind, I note that Admiral McRaven has deemed that 
having the TSOCs assigned to SOCOM will provide him more 
authority to build that first-class TSOC. My question is, is 
COCOM [Combatant Command], is this assignment of COCOM to 
Special Operations Command necessary in order for them to fill 
that resourcing function? Admiral McRaven has made clear 
repeatedly that he intends for operational control to remain 
with the Geographic Combatant Commander, and if that is 
acceptable to the Geographic Combatant Commanders and if that 
is the only way that SOCOM can be permanently oriented to 
provide that support to TSOCs, then that would be the 
appropriate course of action.
    In regard to the other SOCOM proposals, which are that it 
be assigned a global area of responsibility, that it be able to 
initiate requests for forces and that, via a global employment 
order, it be able to shift assets among theaters, I would like 
to note in a broad way that any decisionmaking process I think 
has to be both consultative and agile. And there are such 
mechanisms that do exist via secure video teleconferences that 
gather all of the stakeholders around the table and make the 
decisions. And I think that is one modus operandi that has 
developed over the past years that might be applied more 
broadly for decisionmaking. But I think that anything that cuts 
out a key stakeholder is bound to engender frequent conflicts.
    Now, as to the operational role of SOCOM, global threats 
today do have components that are both global and local in 
nature. The local aspects are under the purview of the 
Geographic Combatant Commanders, and I think that the task here 
and a further study is warranted to see how the two commands' 
purviews could be blended to find a new decision making 
mechanism. What is clear to me is that SOCOM should do a much 
better job than it has been on the institutional side. To me 
that is where long-term strategic impact comes. SOCOM and SOF, 
they have accomplished amazing things over the past decade, and 
indeed for much of their history, but there has been something 
of an operator mentality. The focus has been on tactical 
proficiency and raising that to the highest level possible. I 
think it is now time for SOF to rebalance from this largely 
tactical and operational focus to concern itself with the 
institutional development of SOF that will become more 
strategic in its thinking and more strategic in its development 
of leaderships. So to that end, I think that SOCOM has a full 
plate and a full charter to do more in developing doctrine and 
strategy, managing the careers and education of its SOF 
personnel, and providing strategic leaders not only to the 
community but who are viable candidates for the interagency and 
joint community. And I would note to end that SOCOM has formed 
or is in the process of forming a force management directorate 
that I think is a very important and welcome step in the 
direction of that institutional development. Thank you very 
much.
    [The prepared statement of Ms. Robinson can be found in the 
Appendix on page 33.]
    Mr. Thornberry. Thank you.
    Dr. Lamb.

 STATEMENT OF DR. CHRISTOPHER J. LAMB, DISTINGUISHED RESEARCH 
 FELLOW, CENTER FOR STRATEGIC RESEARCH, INSTITUTE FOR NATIONAL 
         SECURITY STUDIES, NATIONAL DEFENSE UNIVERSITY

    Dr. Lamb. Mr. Chairman, members of the subcommittee, it is 
an honor to be here. I appreciate the opportunity to share my 
views on the future of U.S. Special Operations Forces. I will 
summarize my written statement with just three observations.
    First, concerning SOF resources, SOF have been generously 
resourced this past decade, and I believe they will likely be 
protected from the kind of budget cuts affecting the rest of 
the Department of Defense. That said, I think fiscal austerity 
will affect SOF. The SOF leadership must make difficult choices 
about what capabilities it will allow to diminish, which 
capabilities it will retain and, in some cases, which 
capabilities need to be reinvigorated. For example, SOF may 
have to get along with less of the specialized intelligence 
support that it has grown accustomed to in the past decade, 
which might require SOF to partner more closely with host 
nation personnel. That would be a good thing.
    In my prepared remarks, I try to identify other areas where 
hard resource choices must be made by Special Operations 
Forces.
    The second point concerns the division of labor between SOF 
and General Purpose Forces and within SOF. The key to SOF's 
strategic value in my estimation is distinguishing between SOF 
and General Purpose Forces missions and capabilities and 
between SOF direct and indirect approaches and capabilities. 
Put differently, we cannot preserve and properly employ SOF 
unique capabilities without first identifying them.
    Some people believe these distinctions are academic or old 
news. I disagree. I believe they are the difference between 
success and failure, and they continue to be issues of major 
import. For example, when SOF missions are conducted by 
conventional forces or with units hastily assembled from 
conventional forces, the risk of failure is much higher.
    Of course, we saw this in the iconic case in the 1979 
attempt to rescue hostages in Iran, but the problem persists. 
In 2002, in Afghanistan, and a year later in 2003, in Iraq, we 
lost momentum and dug a huge hole for ourselves by allowing 
General Purpose Forces to take the lead on what were really 
irregular warfare threats. By the time General Purpose Forces 
recognized the irregular challenges and retrained and retooled 
for what were inherently SOF missions, the problems had 
metastasized, and we were on the defensive.
    In addition, some forces recently designated as SOF have 
proven ill-prepared for actual Special Operations.
    Similarly, when we use SOF's direct approach to solve 
problems that would be better addressed indirectly or when SOF 
is not used to approach it in a complementary fashion, we risk 
failure. I believe the 1993 SOF operations in Mogadishu, 
Somalia, illustrate this point, but so do recent operations in 
Iraq and Afghanistan.
    For example, SOF Special Mission Units pursuing direct 
action in Iraq were not able to make a strategic contribution 
until their efforts were better integrated with those forces 
conducting counterinsurgency through an indirect approach. As 
Admiral Olson once commented when he was commander of USSOCOM, 
SOF direct and indirect approaches, ``must be conducted in 
balance, and that is the challenge.'' SOF leaders must keep 
these two compatible but different approaches, skill sets, and 
cultures equally robust and working in harmony and must prevent 
either one from dominating or distorting the other.
    Thirdly, the SOF interagency collaboration requirement. 
Most irregular challenges cannot be defeated or managed 
successfully by military means alone. I think that is well 
accepted. What this means is that SOF capabilities must be well 
integrated with other elements of national power. SOF progress 
on interagency collaboration is one of the great success 
stories of the past decade, but it is more costly, more 
fragile, and more evident in SOF direct action than it is in 
other SOF mission areas. So as a matter of high priority, I 
think we ought to make such collaboration easier, more routine, 
and more widely applied.
    These three general observations summarize my testimony. In 
closing, I would just like to note that when Congress 
institutionalized SOF capabilities in the late 1980s, it 
recognized that building SOF proficiency was a long-term 
endeavor. SOF capabilities, like any military capability, are 
subject to erosion. It takes continued vigilance to ensure 
their preservation. In that regard, I think it is altogether 
laudable that this subcommittee is interested in this topic, 
and I greatly appreciate the opportunity to offer my views to 
you on that subject. Thank you.
    [The prepared statement of Dr. Lamb can be found in the 
Appendix on page 41.]
    Mr. Thornberry. Thank you.
    Dr. Davis.

STATEMENT OF DR. JACQUELYN K. DAVIS, EXECUTIVE VICE PRESIDENT, 
             INSTITUTE FOR FOREIGN POLICY ANALYSIS

    Dr. Davis. Thank you, Mr. Chairman, members of the 
committee, for allowing me to express my views on the future of 
SOF and SOCOM. As you know, U.S. SOF has always been deployed 
for both direct actions and nonkinetic engagement missions, but 
over the last several years in particular, preventive SOF 
deployments aimed at building partner capacities and shaping 
regional environments have emerged as particularly important 
mission sets for U.S. Special Operations Forces and for SOCOM. 
Building and nurturing partner security forces is often the 
price of admission for U.S. access to countries or key regional 
theaters. Moreover, as more and more nations object to the 
presence of large American forces deployed in their countries, 
SOF units with their small footprints are oftentimes a more 
acceptable option.
    For this reason, U.S. SOF indirect action engagements are 
likely to become even more important going forward as budgets 
become tighter and the imperative to operate jointly is matched 
by the growing requirement to work with partners, be they from 
the United States interagency or from outside the U.S. 
Government. With this in mind, I would like to offer six 
specific points for your consideration.
    First, SOF's efforts in building global SOF partnerships 
and global SOF networks will, I believe, facilitate American 
efforts to build partner capacities and therein our efforts to 
leverage allied partner SOF and other security forces for 
common purposes. It will also contribute very importantly to 
SOF interoperability and provide the United States with an 
opportunity to address globally network challenges and threats 
hopefully before a crisis emerges.
    Second, the nature of the challenges ahead and the outlines 
of the emerging security setting require us to be proactive, to 
anticipate challenges and threats, and to do preventive 
planning. This demands a new emphasis on indirect action 
engagements without, however, dulling the spear of U.S. SOF's 
direct action core competencies. That said, and as has been 
pointed out earlier in the two previous presentations, many of 
SOF's direct action core competencies are well suited to 
support SOF's indirect action taskings, but a better definition 
of what indirect action engagements means needs to be 
considered.
    Third, with the force slated to grow to about 71,000 
troops, USSOCOM will have the resources to implement these two 
lines of operation, but to do so as effectively as possible, 
the commander of SOCOM, I believe, will need enhanced 
authorities, both from the Department of Defense and from 
Congress to manage his force globally. With respect to the 
Department of Defense, the SOCOM commander needs to be given 
authority to move forces in peacetime across regional Combatant 
Command areas of responsibility to meet emerging needs or to 
fulfill indirect action taskings.
    Related to this, and this is the fourth point, is the 
broader need for you in Congress to revisit Goldwater-Nichols. 
In particular, in my view, what needs to be done is a 
reassessment in the way that the legislation treated functional 
versus regional Combatant Commands. In particular, the SOCOM 
commander, I believe, should have authority over the TSOCs and 
all U.S. SOF units based in CONUS [Continental United States] 
and overseas. Right now he does not, and except for individual 
ad hoc arrangements, he has no role in TSOC resourcing, 
training, or peacetime planning, and that impinges on his 
ability to manage his force globally to meet globally networked 
threats. Giving SOCOM COCOM over the TSOCs and all forward-
based U.S. SOF units will address resourcing and training 
shortfalls, and it will allow the redeployment of SOF units 
from one theater to another, including from CONUS to forward 
regions, as needs dictate. Global force management of U.S. SOF 
is a necessity, not a luxury in the current strategic 
environment.
    Fifth, to support SOCOM indirect action strategies, I also 
believe that Congress must address funding authorities. Here it 
seems to me, and as Linda pointed out, that some of the 
legislation in place is certainly useful, 1206 funding, for 
example, but much of this funding is tied to specific 
counterterrorism contingencies or to funding for Department of 
State-led initiatives which often take time to get into place 
and contain too many obstacles for timely action. What is 
needed is multiyear authority, I believe, to support a broader 
array of indirect action engagement strategies, including minor 
MILCON [Military Construction] projects with partner SOFs and 
other security forces.
    And finally, SOCOM's vision of regional SOF coordination 
centers should be encouraged, I believe, and implemented. While 
SOCOM commands the greatest SOF capabilities in the world, 
global problems require global partners and constructs. And one 
approach to achieving U.S. national security objectives in this 
regard is via the establishment of the regional SOF 
coordination centers along the lines of the NATO SOF 
Headquarters that is now, has been stood up since March 2010. 
Based on a coalition of the willing nations, the NSHQ, the NATO 
SOF Headquarters, has created a professional education program 
for NATO SOF. It has reached out to non-NATO partners, 
including for example Australia and Jordan. And it has 
developed a collaborative relationship with interagency 
partners. The DNI [Director of National Intelligence], for 
example, is one of its biggest supporters, having provided 
funds to develop an intelligence sharing and fusion capability.
    While the establishment of the NSHQ was related to the 
broader NATO umbrella, it is, as I pointed out a moment ago, a 
voluntary MOU [Memorandum of Understanding] organization whose 
construct can be a loose model for RSCC [Regional SOF 
Coordination Center] development in other regions. The purpose, 
again, would be to foster the idea of multilateral engagement 
and to build interoperability among like-minded security 
partners.
    And with that, Mr. Chairman, I will close, and I am willing 
to take questions. Thank you.
    [The prepared statement of Dr. Davis can be found in the 
Appendix on page 74.]
    Mr. Thornberry. Well, thank you.
    And again, thank you all.
    I was struck as I read your written testimony and again 
today how much agreement there is on so many points actually 
among the three of you, which I think is significant, given 
your different backgrounds and perspectives and so forth, which 
tells me a lot.
    One of the things, it seems, that you all agree on is that 
the indirect approach needs more attention, and so that leads 
me--and you have touched on it somewhat, but my question is, 
what are the key elements that will make for success in the 
indirect approach as we move ahead? What are the things that we 
need to keep our eye on to ensure that the indirect approach 
gets more attention and is successful in moving ahead around 
the world?
    Dr. Robinson.
    And I will just go down the line.
    Ms. Robinson. I did address and I do think my package of 
five, I would hate to have to choose among the five because I 
think they are all important, but I would add that in general 
the U.S. political system shies away from proactive engagement, 
and this indirect approach requires getting SOF operators out 
there on the ground to understand the environment and develop 
the relationships and access. It also requires persistence, and 
that is another thing the U.S. political system is not good at. 
We use the examples of Colombia and the Philippines as very 
important success stories, but they did take a decade. So that 
kind of strategic patience, I think, is really vital, and for 
people to begin to see that it is really a very worthwhile 
investment, and it can happen overall at a much lower cost than 
the large-scale, large military operations that we have been 
involved in, in the past. And then also as I say, I would foot-
stomp that the Theater Special Operations Command is the 
primary node through which you are going to be implementing the 
direct--the indirect approach and achieving balance with the 
direct approach.
    Dr. Lamb. I would just briefly add a couple of points. I 
would agree with my colleagues that multiyear funding is 
incredibly important for any security assistance endeavor. In 
this regard, perhaps USASOC [U.S. Army Special Operations 
Command] could be given more authority. I am also very 
intrigued by the possibility of assigning USASOC, U.S. Army 
Special Operations Command, the responsibility for the Army's 
Human Terrain Teams, which provide additional insight on social 
networks and cultural attributes of regions around the world, 
and it would pair up nicely I think in some respects with our 
Special Forces.
    I think we need to look at a reset of Special Forces. Over 
the past decade, the expansion of Special Forces and employment 
in Afghanistan and Iraq arguably has inclined some of the units 
more toward direct action than their traditional bread and 
butter competencies and indirect action. I think that is 
something that the committee should be interested in, and I 
have the impression that USASOC is interested in this as well.
    I think that our long-term interests are well served by 
improving our psychological operations, now called Military 
Information Support capabilities. They dovetail nicely with 
security assistance and the indirect approach. I think they 
have long been the least beneficiary of all the SOF elements, 
if you will. They have been somewhat neglected. The selection 
and the training criteria are not nearly as rigorous for those 
forces as they are for the other SOF elements. I think some 
attention to that would be useful.
    Over the long term, I have to say I am on record as one of 
those people who thinks that if we can't rebalance in this 
respect, we need to look at the possibility of a separate 
command. I mean, we have looked at new commands for other 
functional areas, and this may be something that the committee 
over the longer term would want to consider as well.
    Dr. Davis. Much of what I have thought about in this area 
has already been said, but there are two specific things that I 
would like to add or three specific things. The first is in 
terms of the training and SOF education programs, I think we 
need to start elevating the importance of the indirect approach 
so that people don't believe it is a second-class set of 
missions relative to the direct action missions, and I do know 
that Admiral McRaven is very interested in trying to get a 
handle on this in his own command. But I think it is a broader 
issue for the U.S. Government and the interagency.
    And one of the issues that I think Congress needs to 
grapple with is the whole notion of security cooperation, who 
has the lead? Does State have the lead, or does DOD [Department 
of Defense] have the lead? And if DOD by default is given the 
mission because it has the resources, then what does it need 
for interagency collaboration in a specific key regional 
theater? These are issues that I believe need further study, 
and I believe, particularly since SOCOM was given the 
responsibility in the Department of Defense for security force 
assistance synchronization, it is something that impacts SOCOM 
very directly, so I think this is one area that Congress can be 
very directive and ask for further consideration, both from the 
Joint Staff, from OSD [Office of the Secretary of Defense], 
from the interagency, and from perhaps even a private 
assessment from outside of government to do a little red 
teaming.
    Finally, to make the indirect approach I think perceived to 
be of equal importance with the direct approach in SOCOM 
planning, I agree with what Chris was just suggesting a moment 
ago, and that is perhaps the development of another three-star 
command, a subunified command under SOCOM, which is the command 
for irregular warfare or whatever or unconventional warfare, 
whatever you want to call it, on a par with JSOC [Joint Special 
Operations Command] and resourced as JSOC is currently 
resourced.
    Mr. Thornberry. Interesting. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    If we could continue discussing the authorities, Dr. 
Robinson, you have commented on this most directly, but here in 
the subcommittee, we have heard about SOCOM's desire for 
additional authorities, and can you elaborate on your opinions? 
Is it SOCOM or the regional Combatant Commanders who are best 
positioned to understand the needs of SOF, the capabilities of 
SOF, and the best way to utilize SOF versus other assets?
    Ms. Robinson. Well, first, I would like to say there are a 
plethora of authorities that Congress has granted, and the 
Theater Special Operations Command routinely combine a number 
of them to try to put together what they would consider an 
enduring campaign, not just the 1200 series, but JCETs [Joint 
Combined Exchange Training], counternarcotics authorities, and 
in my extensive interviews, a number of people who have 
wrestled through this feel that there could be some 
rationalization to cause them to have to go through less of 
that cobbling together for a campaign, but I think that a 
touchstone really is to continue with a Chief of Mission 
approval, consider what the State Department equities are, but 
ensure that that process works rapidly.
    As far as whether SOCOM or the GCC [Geographic Combatant 
Command] should take the lead, you know, this is I think a very 
complicated issue, and from my standpoint, I would just like to 
point out that SOCOM is currently providing, if you take both 
the regular funding and the OCO [Overseas Contingency 
Operation] funding, they are providing roughly half of the 
funding for the TSOC, so they clearly under the current 
arrangement have some ability to fund and support the TSOCs. 
The question is, will they become much more aggressive and 
coherent in their approach to the programming and budgeting 
process if they are granted the COCOM authority? They have 
stated, Admiral McRaven has stated that the GCCs would retain 
the OPCON [Operational Control], but I think that is really the 
crux of the issue, to ensure that the GCC continues to see the 
TSOC as its arm and its primary mechanism for conducting SOF 
operations. If they were to see it as a SOCOM entity, they 
would be less likely to employ it in the field, and the net 
outcome would be worse, in my opinion.
    Mr. Langevin. Dr. Lamb or Dr. Davis, do you care to 
comment?
    Dr. Lamb. I would just briefly add one point to that. I 
think that an effective long-term indirect approach in a 
country, say, like Yemen or any other country with which we 
want to develop better relations and a commonality of interests 
in counterterrorism is dependent upon the interagency approach, 
so without knowing the specific details of Admiral McRaven's 
proposal, which I understand are still under development, my 
inclination would be to favor them or look on them with favor 
if they were going to be implemented through the local embassy 
special assistance package or a team, an interagency team that 
was overseeing that process. To me, that would make more sense 
than trying to manage that effort globally from USSOCOM 
headquarters.
    Dr. Davis. I would just add to that point that it is all 
situation dependent, and it depends on what is going on in the 
region. For example, if this is something that is really 
speaking to the counterterrorism set of mission areas that 
SOCOM is interested in, then it might be appropriate for SOCOM 
to take the lead, but I believe that Admiral McRaven has always 
emphasized that what he would do in theater would come under 
the Chief of Mission's authority. Operationally the regional 
Combatant Commander would have control. It would all be in 
consultation. What he is really concerned about is placing the 
right resources, in the right place, in a timely fashion, and 
then allowing his TSOCs to exercise with partner forces and not 
just SOF counterpart forces, but Ministry of the Interior 
forces, Drug Enforcement Agency forces, whatever is relevant 
and specific in a particular theater in a specific context. He 
wants to have the freedom to be able to develop a program of 
outreach to those agencies with whom he would be working on the 
larger global network challenges, and he continues to want to 
support the regional COCOM's priorities, but oftentimes the 
regional COCOM's priorities are different priorities than the 
global functional command's priorities, and he is trying to 
bridge that gap I believe in some of these proposals he is 
grappling with.
    Mr. Langevin. Thank you. My time has expired. I hope we 
will get to a second round of questions. With that, I yield 
back and thank you for your answers.
    Mr. Thornberry. Mr. West.
    Mr. West. Thank you, Mr. Chairman, and Ranking Member.
    And thanks for the panel for being here.
    And, you know, maybe I am a little outdated because I did 
retire 8 years ago, but I am trying to go back and just close 
my eyes and think about the line and block charts that you all 
are talking about and the dash--dotted lines all over the place 
because, you know, one of the key things that they taught us 
was unity of command and unity of effort, and so as I listen to 
you talk about TSOCs, and, you know, them getting in the area 
of operations, area of responsibility for theater commander, 
you know, how will some of these things that we are talking 
about, when we start to have a functional commander that is 
over here, you know, headquartered in Tampa, you know, being 
involved with the theater operations that let's say that 
General Allen is specifically tasked with doing, what really is 
the relationship that we are talking about here because having 
been a commander in a combat zone, the last thing I wanted was, 
you know, cowboys in my area of operations operating, you know, 
independently without my understanding, and I don't want to see 
us, you know, having that happen, you know.
    I hear you talk about interagency and other things with 
coalitions, so when you talk about this TSOC, I remember we 
used to have SOCCEs [Special Operations Command and Control 
Element] and every combatant command had a Special Operations 
Command and Control Element that was supposed to be that 
liaison with those Special Operations Forces. Are we bypassing 
the SOCCEs now with these TSOCs? Or are we making the SOCCEs 
irrelevant even?
    Ms. Robinson. I would first answer that the SOCCE is more 
of an operational and temporary construct, and the TSOC is an 
enduring subunified command of the Geographic Combatant 
Command. And I would say that the concern that you have 
expressed is certainly one that has been heard and has been 
voiced, and I would underline, I think it is critical that 
there be, with any such change, a clearly enumerated permanent 
assignment of operational control to the Geographic Combatant 
Commander so that that principle of unity of command does 
continue to be observed, and I think that the confusion----
    Mr. West. And unity of effort.
    Ms. Robinson. And unity of effort, yes, and through the 
Chief of Mission approval that is in many of these authorities 
that I think recognizes a very critical part of getting 
interagency unity of effort. But I would like to add I think 
that some of these concerns expressed around a global area of 
responsibility for SOCOM as a functional command has created 
some concern that there would be SOCOM moves to move forces in 
and out of Combatant, Geographic Combatant Commanders' areas 
without their approval, not just their coordination. So it 
comes down to who has the vote. And in my view, this has got to 
be a collaborative process or it is not going to work. Any 
attempt by SOCOM to override or trump the GCC is going to issue 
an endless bureaucratic battle. So I think the process needs to 
be very clear. And while I recognize that many of these global 
threats transcend the geographic combatant command boundaries, 
you cannot have SOCOM sitting atop the Geographic Combatant 
Commander system. Thank you.
    Dr. Davis. Congressman, I don't believe that anything 
Admiral McRaven is considering would do that. I believe he is 
really thinking about his peacetime authorities and the 
flexibility to move forces to meet prospective needs or looming 
threats on the environment and to do the exercise and training 
that he believes necessary to keep those units current in terms 
of capabilities and understanding. I do not believe he is 
talking about going over a regional COCOM's head. He is talking 
about doing things together in a cooperative, collaborative 
fashion.
    Mr. West. And I will wholeheartedly agree with you because 
one of the things that you all did bring up, when I was a 
battalion commander in Iraq, we did four different missions in 
support of Delta, and I think that, you know, there was a lot 
of discovery learning on the fly, but we were able to, you 
know, execute and provide the external cordon for them, but 
there was rehearsals and, you know, getting down to TTP 
[tactics, techniques, and procedures], so, you know, that 
aspect I understand. And I wholeheartedly agree that on this 
side, we should have more of those, you know, type of 
operations where we are training together, we are learning, and 
there should not be this distinction between, you know, the 
Special Operation type forces to include the PSYOP 
[Psychological Operations] forces and others and our 
conventional forces, so, you know, that I support. But, you 
know, when you start talking about on the ground in the combat 
zone, you know, we have got to be very careful about the line 
and block charts.
    Dr. Davis. And he definitely is not talking about combat 
zone. He is talking about those ambiguous environments where 
there is activity.
    Mr. West. We don't have ambiguous environments.
    Dr. Davis. Not at all.
    Mr. West. All right. Thank you very much. I yield back.
    Mr. Thornberry. Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman, and 
thank you all for being here. I guess one of the things I would 
say about your presentation, and I really appreciate the hard 
work that you all have been doing for so many years is, you 
know, we have come a long way. I am not sure I would add baby 
at the end, but we have come a long way, and I remember, and I 
know the chairman knows this, sort of kind of the shock and 
great concern that we had when it was obvious that people were 
playing at their jobs, particularly as it related to trying to 
do some interagency collaborative work when people really 
didn't have the depth or the training to do that, and so we 
have tried hard to understand that better.
    One of the concerns that I remember, though, and you can 
share with me if this is just not true today, is that one of 
the reasons that the military obviously had a leg up, if you 
will, on all of this is that they had a deep bench, and that 
when we tried to do more cross-training and tried to bring 
along folks who were involved, whether it was the State 
Department or USAID [U.S. Agency for International Development] 
if that was appropriate, whatever it was, Agriculture or 
Commerce, we didn't have the people to really be available to 
do the training and to meet together. I know that the Defense 
University had that problem. There were plenty of individuals 
in the Services to come forward, but we couldn't spare as many 
people to do that. Is that still an issue and a problem? 
Because as you talk about many of these areas, it does depend 
on having people available to take the time to do that kind of 
collaborative training together if, in fact, we are talking 
about far more than theater operations. Has that problem gone 
away? I doubt it because I don't think the resources are there.
    Dr. Lamb. No, I would respond to that by saying that 
actually particularly the Department of State, some of the 
smaller elements in the national security system do have a 
problem meeting interagency collaboration requirements, 
particularly given the way we do it now, which is very labor-
intensive. It is a volunteer activity. You have to get all the 
people in the same room on a sustained basis, so it is labor-
intensive. It is not very efficient, frankly, and in that 
sense, the military definitely has an advantage. It can put 
manpower on the task when it wants to. It is actually I think a 
great compliment to past Special Operations commanders over 
this past decade that they have been willing to allocate even 
very scarce military talent to effect interagency 
collaboration. So that is all to the good. But that is an 
ongoing problem.
    However, that said, I think that there are greater 
problems, greater impediments to interagency collaboration than 
just not being able to put the manpower forward to work on 
these small teams. It doesn't take that many people working 
together in a room to effect interagency collaboration if the 
conditions are set for success. Typically in the current 
system, we don't have those conditions set for success. So I 
can elaborate on that if you like.
    Mrs. Davis of California. Please, if you would. The other 
question I would like to put into this discussion because my 
time is so limited is really the women's role in SOF. What is 
that? I mean, in terms of training and integrating women into 
that. I know the work of the FETs in Afghanistan, the Female 
Engagement Teams, and it is a significant role. Unfortunately, 
they are being pulled out in a lot of areas, not because they 
are not doing a good job but because their units are leaving. 
And so how--where does that fit? Because I think that actually 
we have seen what a difference their role can make, and I am 
wondering if that is kind of a missing piece when we look at 
this.
    Dr. Davis. Well, certainly the current commander and the 
previous commander of U.S. SOCOM has appreciated the potential 
contribution that many women in the force are making, can make, 
and will make into the future to support SOCOM and SOF 
operations, and combined SOF and General Purpose Force 
operations, both in operational settings but much more 
importantly in this set of indirect action mission areas, where 
women I think will increasingly be able to bring to bear their 
capabilities. Certainly in Afghanistan, we have seen how 
important in the Village Stability Programs that the 
introduction of women in the forces has been, and the 
utilization and leveraging of our particular assets as part of 
the female gender.
    Admiral McRaven, I believe, recognizes that and certainly 
all of the components--Army, Navy, Marine, Air Force of SOF, of 
building SOF forces--have valued their female operators, 
whether they are intelligence personnel or whatever, MOS 
[Military Occupational Speciality] they have. And I think in 
the future as the numbers go up in SOF to 71,000, around 71,000 
people in the force, I think you will see a larger percentage 
of women in operational settings as well as in the headquarters 
in the United States as well as in the TSOC organizations.
    Mrs. Davis of California. Thank you.
    I hope, Dr. Lamb, you can follow up in another minute about 
some of those other obstacles. Thank you.
    Mr. Thornberry. Mr. Barber, this may be our first 
subcommittee meeting since you have joined the subcommittee. We 
are glad to have you.
    Let me ask about a couple of other things. Then absolutely 
any other member who would like to pursue other things may 
definitely do that.
    Here is what worries me--one of the things that worries 
me--a tremendous amount of publicity has been given to Special 
Operations, especially since the Osama bin Laden raid. And that 
has a danger in and of itself as the enemy learns what we do 
and how we do it. But the rest of the story is now everybody 
knows how good these folks are, and the temptation is to have 
them do everything because they can do whatever they put their 
mind to so well.
    And so the question is: How do we ensure Special Operations 
stays special? And especially in the situation where it looks 
like in Afghanistan we are moving towards a situation where 
Special Operations is going to run the country, from a military 
standpoint, how does that work? And as we think about the 
temptation to use Special Operations for everything and giving 
them a whole country to run, does that threaten some critical 
capabilities that nobody else can do? That is what is going on 
in my mind, and I would appreciate your all thoughts on that.
    Ms. Robinson. I think that is one of the concerns upper 
most in the mind of the SOF leadership, and the danger of 
overstretch is real. The way I see it, the mission in 
Afghanistan, as we go toward a FID/CT [Foreign Internal 
Defense/Counterterrorism] mission, is one that is appropriate 
for SOF, but it will not be able to handle it alone. So it is, 
I think, imperative that the mission be defined with some 
precision, and then a blended command setup that draws heavily 
on the conventional forces. And they have many particular 
skills that do not exist in the Special Forces, Special 
Operations Forces, including provost marshals, a lot of the 
enablers, a lot of these special subsets.
    So my general view is that blended SOF conventional force 
combinations extend the reach of SOF and help them avoid 
overstretch.
    Also, I would like to underline what Jacquelyn said 
regarding SOF partners. This is a very important way of also 
extending SOF's reach. I think it is very little covered in 
this country that NATO SOF and other coalition SOF are helping 
in Afghanistan, particularly with the Provincial Response 
Company training effort, but there are also Middle East 
partners there helping, and these are very important force 
multipliers, if you will.
    And I think, looking around the world, a lot of those 
missions, those indirect missions, are very small, a few teams 
required per country. But I think it will require a constant 
evaluation of the priorities. And within Afghanistan, they have 
to make, I think, some hard decisions about where 
geographically to focus. And my view is they should focus very 
clearly on the insurgent belt, the south and the east, rather 
than trying to make it a countrywide effort.
    Thank you.
    Dr. Lamb. I would just say that I think historically your 
concerns are validated by experience. Not long after 9/11, 
there were cases of Special Operations Forces being used for 
what I considered inappropriate missions, such as site or 
personal body protection missions that were not the best use of 
our Special Operations Forces. Under the circumstances, it was 
perhaps understandable that they were used for that purpose 
around this town and elsewhere. But I think that has basically 
declined.
    Another area where I think this might be a problem was the 
shift after 9/11 from security assistance being a collateral 
mission to being a core mission. That has an advantage and a 
disadvantage. The advantage is that SOCOM now has the lead 
responsibility for recommending whether General Purpose Forces 
or Special Operations Forces conduct a security assistance 
mission. So that is a good thing in general. But if it invites 
the Services, the General Purpose Forces, to back away from 
security assistance and forces SOCOM to carry more of that load 
itself, I would consider that a poor use of our Special 
Operations Forces talent.
    I must say, though, in this area, there is a problem within 
SOCOM, I think, and it gets to the question of what is the 
scale of our direct action missions. I mean, many of these 
missions can be looked at as elective, if you will. We are 
doing some of these missions on an industrial scale, if you 
will. And that has had the effect of pulling in not just our 
special mission units but pulling in the ODAs [Operational 
Detachment Alphas] and everybody else to get involved in that 
to a certain extent.
    So there it is kind of a SOCOM management issue as to are 
we really doing what we need to do with direct action. It is 
quite possible, in fact, I believe it is probably the case that 
our direct action missions could be executed with far greater 
discrimination, taking into account the political effects of 
those missions. It is an incredible capability. It doesn't have 
to be used on the scale it is, I think, to achieve the 
political effects that we would desire from that.
    So, in that sense, some rebalancing within SOCOM could 
limit the workload in that regard and make sure that they are 
used to good effect.
    Dr. Davis. Just one final thought along the lines of 
Afghanistan. I have thought that what came out of the Chicago 
summit was not precise enough in terms of defining what it is 
actually that our forces are going to be doing after 2014.
    There is the assumption that much of the burden of what 
will occur after 2014 will fall to Special Operations Forces. 
And, indeed, we have created a new command and control 
structure for Afghanistan to facilitate the post-2014 period.
    But understanding exactly what the training mission is, in 
quotes, I think, needs to be spelled out much more precisely. 
And then, the second part of that, understanding which allies 
are going to be with us to perform that mission is not at all 
clear in my mind. We made certain assumptions, for example, 
about the French. The French have had a change in government. 
Mr. Hollande made some pretty ambiguous statements in Chicago. 
I have heard my German friends make statements about 2014. That 
is just it. My Italian friends have made similar statements. In 
Poland, they have created a SOCOM-like organization to promote 
SOCOM and to keep its commitment in Afghanistan. But now, with 
the government change in Poland and the tensions between the 
president and the prime minister, they are now reconsidering 
whether or not those units should be pulled back in under the 
Army just to perform direct action missions and not do the 
training and direct engagement missions that would be required 
in Afghanistan.
    So, to my mind, there is a lot of uncertainty, and that 
uncertainty, called Afghanistan post-2014, impinges quite fully 
upon the future of SOF and SOCOM planning, I believe.
    Mr. Thornberry. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I don't think it would be at all controversial to assert 
that modern warfare is extremely complex and growing even more 
so, and that any future conflicts will have cyber dimensions as 
the domain continues to grow in importance. So with that, to 
what extent is SOCOM training and resourcing able to operate 
both in the cyber domain and in the nexus of the cyber domain 
and the physical domain?
    For example, advanced analytics to identify and exploit 
networks, counterthreat capabilities and advanced offensive and 
defensive network tools?
    Dr. Davis. That is one area that I was going to suggest if 
I had a question about what should the missions be or are there 
any missions that SOCOM could shed for fear of getting into a 
situation where this is a force of first choice that we go to 
in every instance.
    I believe SOCOM and SOF should be playing much more 
intensively in the cyber area, but we might conflate its 
activities in the cyber area with computer network operations, 
information operations, strategic messaging, and even perhaps 
psychological operations. There might be a way of putting 
together these disparate pieces of a larger puzzle with a 
greater emphasis on the cyber piece, which if you are looking 
at networked global challenges, obviously the cyber piece 
becomes very, very important.
    I think that is one area that SOCOM needs to address much 
more fully as we go into the future, in both planning, ensuring 
it has the correct personnel with the right competencies, and 
also with respect to operationalizing cyber as a piece of SOCOM 
planning.
    Mr. Langevin. Ms. Robinson, do you have any comments?
    Ms. Robinson. My view is that some portions of the Special 
Operations Community have been extremely effective in 
leveraging other capabilities elsewhere in the Government. And 
with the stand up of Cyber Command, I would hope that that same 
kind of synergy could be employed rather than trying to create 
a wholly new center of excellence, if you will, under the SOCOM 
umbrella. Of course, there are very proficient tactical units 
at the field level. For example, SOT-A [Special Operations Team 
Alpha], is very valuable to those teams out in the field. But I 
would think at the higher level, it is really a question of 
increased interagency collaboration and formation of these 
interagency task forces to get after the combined threat.
    Mr. Langevin. Thank you.
    Dr. Lamb.
    Dr. Lamb. I was thinking about what I can say about this in 
an unclassified venue, but I would just say that I support 
SOCOM's involvement in information operations and also in 
counter proliferation. Those are two missions it has added over 
the past couple of decades, and I think they do have a very 
discrete but well-defined role in those missions that they need 
to be prepared for, and as far as I know are prepared for. So I 
don't see that as undue expansion on their part.
    Just to agree with my colleagues here, one of the big 
challenges in any complex mission area, including cyber 
security, but also counterinsurgency, counter proliferation, et 
cetera, is that we have simply got to learn to work across 
organizational boundaries. So you are not going to have 
everything in a nice, neat package. SOCOM won't have the alpha 
and omega responsibilities for cyber security or information 
operations, or even for counterinsurgency. Or for very little 
that it does, actually, which is why we really need to take 
seriously the requirement to improve our interagency 
collaboration skills. These missions have to be tackled on that 
basis. And that goes for collaboration with the Geographic 
Combatant Commands and SOCOM as well.
    The other big challenge we have, in addition to cross-
organizational collaboration, I think, is decentralizing to get 
the problem solvers closer to the problem, which is going back 
to a point that was made earlier. I would like to see--I agree 
that the Theater SOCs need to be muscled up, but I don't think 
the tension should be between the Geographic Combatant Commands 
and SOCOM for control of those security assistance missions. It 
should be managed through the embassy and the interagency team 
on the front lines that are going to work the problem day in 
and day out on a persistent basis.
    So if the decisionmaking is done closer to the problem, as 
would be the case, for example, on JIATF-South [Joint 
Interagency Task Force-South], and you just get general 
supervision by SOUTHCOM [U.S. Southern Command] or the 
respective combatant commands, I think we would have less of a 
problem. So decentralization and working across organizational 
boundaries, these are two things that we have to get better at.
    Mr. Langevin. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Thornberry. Mr. West.
    Mr. West. Thank you, Mr. Chairman and Ranking Member.
    I wholeheartedly agree with what the chairman just said, 
because, you know, I remember back when we created the Green 
Beret, a very specific, a very narrow mission set that we had 
them do. And even when we created the Special Forces as a 
branch when I was a young captain, once again, very specific 
mission set.
    But when you sit down and you look at Act of Valor and all 
of these things, all of a sudden it becomes the shiny little 
toy. And everyone is running and saying, well, the Special 
Operations guys can do it; the Special Operations guys can do 
it. Not only are we overextending them, also we are 
underutilizing the other aspects of our military.
    When I was down at Camp Lejeune, I did a 3-year Joint 
assignment. What I saw was the MEU [Marine Expeditionary Unit] 
program. I think that is something that we need to look at how 
we can develop with our conventional forces because you take a 
Marine infantry battalion and you separate out to be a Marine 
Expeditionary Unit, a MEU, but it has to go through specific 
training and some of that specific training is on a series of 
Special Operations capable missions, so they get that tag line 
MEU SOC [Special Operations Capable].
    So I think what we need to start looking at, when I look at 
this list, direct action, special reconnaissance, security 
force assistance, unconventional warfare, foreign internal 
defense, civil operations operations, counterterrorism, 
military information support operations, counter proliferation 
and weapons of mass destruction, and information operations, I 
get exhausted just reading that list.
    One thing that we are not talking about here, we still have 
this thing out there called sequestration. So we really need to 
start looking at how do we take and narrowly focus these 
missions? Because one of the things we said in the military, if 
everything is a priority, nothing is a priority. So how do you 
properly train people on this litany of 10 or so different 
tasks? They are not going to do it very well.
    And I am very concerned about the fact that we are going to 
try to turn over Afghanistan to the special operators. That is 
not what they were intended to be. There is something that you 
can go back to your think tanks and talk about. Let us look at 
that MEU SOC model of how we can maybe alleviate some of these 
missions from the ``Special Operations Community'' and look at 
how--you know, we have Rangers out there. I mean, Rangers 
should be able to do some of these operations, like a direct 
action mission. They are highly specialized infantry. That is 
what we need to start looking at. That is my little 2 cents 
worth.
    Dr. Davis. Congressman, if I may, if you take that list 
that you just articulated and you look at it, you realize that 
some of them are activities and some of them are missions. And 
some of the activities might be core competencies of SOF, or 
they might be core competencies of General Purpose Forces, or 
they both might operate together. But I think we do need to 
reassess what it is we want U.S. SOF to do. Absolutely. I 
couldn't agree with you more.
    Ms. Robinson. I think that one of the ways to avoid this 
overstretch problem is to recall that SOF really are supposed 
to be used in hostile, denied, or sensitive environments. I 
think that is one way to quickly delimit some of this.
    If we are talking about security force assistance in a 
benign environment, that should be largely seen as a 
conventional force responsibility, unless it is SOF training 
SOF or SOF-like forces.
    Also the list of nine, I have always had a problem with 
that because it is kind of a mishmash, and I think the draft 
Army doctrinal publication forthcoming has a binning of 
surgical strike and special warfare, which I think provides 
some intellectual clarity about what we are talking about. I 
think they get trained on those subset missions really as part 
of those two categories.
    Finally, I would say, in Afghanistan, it is very important 
to clarify the mission. If it is just behind-the-wire training, 
yes, I think that can be not only a conventional force mission 
but probably Afghans will be very quickly able to do much or 
all of that themselves. But for continued counterterrorism, 
combat advising and if there is an ongoing effort to support 
the village stability ops and the Afghan Local Police, I think 
that is clearly, we have those small teams out in those very 
wild and woolly places, that is a SOF mission.
    Mr. West. That fits within their mission statement. That 
goes back to Vietnam when we had the Strategic Hamlet Program. 
That is the mission set. But you are right, if it is just to be 
there to train ANA [Afghanistan National Army], you don't need 
special operators to train the ANA.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Thornberry. Mrs. Davis.
    Mrs. Davis of California. Dr. Lamb, just continuing, I 
think you were talking--really, what gets in the way?
    Dr. Lamb. Of interagency collaboration?
    Mrs. Davis of California. Yes. And we know, we have had 
those discussions before in terms of people looking only in 
their own silos, but what is it?
    Dr. Lamb. Well, I think the main obstacle to interagency 
collaboration is the very structure of our system. We have 
built very powerful, functional departments and agencies. And 
this makes a lot of sense. It gives us a great reservoir of 
support and all of the relevant elements of national power. So 
there is a lot of advantage to that.
    But if you compare those strengths against the cross 
organizational collaborative constructs we have, they are all 
very weak. So our ability to actually integrate those 
functional capabilities to good effect is very poor.
    And to bring it down to earth and really to my own personal 
experience, I have had some examples that I can attest to in 
this regard, but if you are sent to serve on an interagency 
group, you immediately have a great tension. On the one hand, 
you are trying to represent your agency correctly and protect 
its organizational equities and its preferred position; on the 
other hand, you have the sense that you are suppose to help the 
whole group accomplish the mission well. This is a tension that 
the system does not send clear demand signals on.
    Many times those of us who have worked in bureaucracy will 
be sent to these kind of groups with the overriding mandate to 
make sure that the organization's preferred position comes out 
in the end. Or if not, to ensure that it is not sacrificed, 
which means that the thinking gets watered down, the products 
get watered down, et cetera; the clarity gets watered down, et 
cetera.
    So my view of this is that, absent some kind of 
intervention from--I actually believe and have written on this 
subject--from Congress to give the President the authority to 
delegate his authority for integrating across the Cabinet level 
departments and agencies, we are going to continue to find that 
this capability is very, very fragile.
    Again, I think SOF really has to be congratulated as one of 
the few elements of the national security system that have 
taken this requirement seriously. I think they backed into it, 
realizing that they were not going to get actionable 
intelligence to go after the bad guys without interagency 
collaboration. And they built that level of collaboration up. 
They then looked at their operations and said, we are still not 
getting strategic effect. They started bringing in other 
things, like political talent and information operations 
talent, and they started performing at a much higher level, our 
special mission units. I think that is a great success.
    We need to do the same thing on the indirect side. But this 
is a pocket of expertise and success that is not replicated as 
a general rule across the system.
    There are other big problems. We have a penchant for taking 
all of our complex national security missions and dividing 
responsibility up among different entities. So we will have 
someone work the policies, someone work the planning component. 
Someone will work the actual operations. Someone will assess 
it. Nobody manages the mission end-to-end, as a typical rule.
    In all of the cases that I have studied where we have had 
so-called black swans of interagency collaboration, those that 
have performed really well, they do find a way to manage the 
mission end-to-end. That is one of their distinguishing 
characteristics. But typically, our national----
    Mrs. Davis of California. Do we really study that to 
understand what leadership is doing that is different in those 
situations?
    Dr. Lamb. Well, I am actually shocked by the lack of 
serious, rigorous research on this subject. I would have 
assumed, given all of the attention paid to it, rhetorically, 
that we would have a lot of dedicated research. But when you 
think about it, it is not so strange. None of our departments 
and agencies is inclined to spend a lot of research dollars on 
this because they are not assigned that responsibility. If you 
look at the National Security Council, staff is actually 
relatively small with a relatively limited budget, and they 
typically have their nose deeply in the inbox. So there is not 
really anyone with a vested interest in looking at this other 
than the Congress or the President, I suppose.
    But what research we have done on this indicates that there 
are some overarching requirements for success. There are some 
things to avoid, et cetera. And to promote our research a 
little bit at National Defense University, we are doing a 
series of case studies on this designed to find some general 
lessons learned. And we do have support of some people in the 
Special Operations Community for that purpose, which I am very 
grateful for.
    Mrs. Davis of California. But you seem to be suggesting as 
well that Congress has a role and perhaps there are some 
authorities or opportunities to make this easier or to 
encourage more partnerships?
    Dr. Lamb. Yes, we do. We actually have a study and a report 
on that very subject, and we recommended that Congress pass 
legislation that would give the President the authority to 
delegate his presumptive authority, integrate the departments 
and agencies through what we called mission managers. So we can 
certainly provide that information to the committee staff, if 
you would like.
    Mrs. Davis of California. Okay. Thank you very much. My 
time has expired.
    Mr. Thornberry. It is an important problem. It is hard for 
Congress to grapple with as well.
    But the gentlelady knows, and I feel strongly, like she 
does, that we have to grapple with it.
    Let me ask a couple of organizational issues. There has 
been tremendous growth in Special Operations over the last 
decade. Admiral Olson used to always come and talk about his 
concern that as we increase the number of people, we maintain 
the quality of the people that are coming in. But from an 
organizational standpoint, U.S. Special Operations Command was 
created by Congress to be agile and given special procurement 
authorities so they could buy and acquire what was needed right 
away and get it done. Has SOCOM become too big? Has it lost 
some of its agility as far as procurement or other hopes when 
it was created?
    Dr. Davis. It has not become so big; it is in danger, 
perhaps, of doing so. But what has happened is, because of its 
sustained operational tempos over the last several years in 
particular, it has come to depend much more on the Services to 
enable many operations. And in many cases, the Services, 
looking at their own budgets, understanding the environments we 
are in, are cutting those enablers, for example, that are 
necessary for SOCOM and SOF to perform its missions in forward 
areas.
    So I think there is a danger of getting too large because 
you lose your special nature, and you don't have the 
specialized skill sets and core competencies of people you will 
need. But more importantly, in this environment that we are in, 
with each of the Services contracting, force structure and 
looking at recruiting bases for people in competition with 
SOCOM now, increasingly, that I think there is a danger as we 
go forward of finding the right people for the command and 
certainly having the Services support the commands with the 
enablers that they need.
    Helicopters is an area in particular in which SOCOM really 
needs the air mobility piece to enhance its forward operations, 
and the Services just don't have the capabilities to bring 
forward in this regard.
    Dr. Lamb. I would add just a couple of quick points. I 
think it is a mixed picture. I mean, I would be the first to 
say that SOF, especially in the direct action area, is much 
more agile today than it was 10 or 15 years ago, not only 
because of the resources that they have been given but because 
of the experience they developed and because of the interagency 
collaborative protocols and organizations they have pioneered. 
They do things routinely today that were very difficult, you 
couldn't even imagine them. I mean, somebody pointed out to me, 
a colleague in the Pentagon that I was talking about this 
testimony with, he pointed out that it took us 13 years to 
identify the bombers of Pan Am 103. Our forensic capabilities 
today are much, much, much more refined than that. We have 
unbelievable agility in some respects in our Special Operations 
Forces today. It is awe-inspiring.
    On the other hand, in the indirect areas, I think we have 
atrophied a bit. You know, we have with 80 to 90 percent of the 
force in just two theaters, and so the language and cultural 
skills in the context there have atrophied. In that sense, we 
are less agile.
    But one other thing that I have heard that I pass on to you 
is that the abundance of technology that has been made 
available has perhaps eroded some of the creative SOF problem-
solving skills. There was a certain pride--not unlike the 
Marine Corps in certain respects--but certain pride in SOF 
about being able to do very creative things with very little 
resources. Certainly being able to go into a complex situation, 
assess what resources you have, operate within those boundaries 
and still solve the problems. Some people in the community 
think maybe that has atrophied with the sort of direct action 
capabilities that have been provided.
    Ms. Robinson. I would like to add a few points. I think 
SOCOM and its subordinate elements are not too big, but I do 
think some rebalancing toward the indirect capabilities is 
needed and perhaps relooking what the headquarters is doing. 
Some redundant functions are there perhaps.
    What is very clear to me is that these enablers are 
critical for SOF to operate. The distributed operations require 
a lot of lift and a lot of support. And out there in 
Afghanistan, as you know, these rigors are working 24-7. All of 
these people that have to supply the SOF teams out there in the 
hinterlands, and SOF have been building more support forces. 
That is the last part of the build for the expansion, and I 
think it is very critical that they get that but also continue 
to have access to conventional enablers. And that is part of 
this SOF Force Generation process that they are working 
through.
    Finally, though, if budgetary requirements come to bear, I 
think it is very important to remember that SOF truth that says 
quality is more important than quantity, and I think the 
command will protect that at all costs. The operatives have to 
meet that standard in order to be able to perform their 
assigned missions.
    Mr. Thornberry. A similar question on the civilian side. We 
have an Assistant Secretary for Special Operations and Low 
Intensity Conflict. Any changes ought to be made there? Or do 
you think that kind of counterpart within the Secretary of 
Defense's Office is okay for now?
    Dr. Davis. Looking at it from afar, I don't think that that 
office has been particularly helpful to SOCOM until quite 
recently. In the building, it has been rather lost in policy 
debates. The ASD, Assistant Secretary of Defense, for SO/LIC 
[Special Operation/Low Intensity Conflict] has been able to 
articulate requirements, but I think going forward, working 
together, and I know this is certainly the plan of Mike Sheehan 
and Admiral McRaven, to make sure that they are in sync so that 
Mike can articulate in policy forums the requirements for SOCOM 
but also, very importantly, to say no, that is not a SOCOM 
mission and you don't need SOCOM forces. When considering 
global force employments, I think that is particularly 
important. So I think the relationship needs to be much tighter 
than it has been.
    Now I know it was very tight when you were there, Chris.
    But I think in the policy world in the Pentagon, the ASD 
SO/LIC needs to be much more proactive than he traditionally 
has been in inserting SOF equities, SOF issues into policy 
debates but also protecting SOF interests.
    Dr. Lamb. I would add one quick comment.
    We were chuckling because we were talking about this very 
issue a little earlier. I have not worked in that organization 
for over 15 years, but I still know people in it, and I would 
not want to make a--I don't know that there are any structural 
changes that need to be made there.
    But I would say one thing to Members of Congress about the 
creation of the ASD SO/LIC; I think it was a good move.
    Just to give you one example, if you chart some of the 
issues that are now standard thinking in Special Operations 
Command, like the distinction between a direct and indirect 
approach or what are the key elements that make Special 
Operations special, et cetera, you can track them all of the 
way back to early 1990s when a group of special operators and 
people in ASD SO/LIC sat down to create something called the 
Long-Range Planning Document for SOF. And so I do think the 
organization has had an effect, and a positive effect.
    That said, there have been times when people in the 
building, and I have worked in other offices in the Pentagon, 
have asked whether they really need to hear the Assistant 
Secretary's view because it is not likely to be at all 
different or interesting compared to U.S. SOCOM's view. And so 
I think there is something that needs to be looked at there.
    If an incoming Assistant Secretary asked my advice, one 
thing I would say to them is that you need deep Special 
Operations expertise on your staff, but you also need 
multifunctional expertise on your staff as well. Just like SOF 
has to work with other skill sets to be effective against the 
complex missions that we face, that staff needs to, in its 
oversight role, needs to have a multifunctional base, and that 
might be something to look at.
    Ms. Robinson. May I add two points?
    I think that the Office of SO/LIC should focus full time 
and exclusively on SOF. And I think historically they have been 
burdened with other additional responsibilities. And to me, 
this is too critical a portfolio to have other issues also 
under that ASD. I know there is some concern in the building 
there if they were to reorganize in that way, they might lose 
bodies. But I think it is very important that ASD SO/LIC be 
focused on SOF.
    Secondly, I think its oversight role does require some 
degree of independence. Yes, to support SOCOM, but I think it 
is very important that the USDP, the Under Secretary of Defense 
for Policy, be able to turn to ASD and say, be my honest broker 
here, tell me what you think, give me your own opinion. Thank 
you.
    Mr. Thornberry. Any other questions?
    I think that is it for now. Thank you all again for your 
testimony and for answering our questions and for all of the 
work that you have done in this area. We look forward I am sure 
to further communication with you as we grapple with what we 
can do to help make sure that Special Operations is as well 
positioned as possible in the future to help protect our 
country.
    Again, thank you for being here.
    With that, the hearing stands adjourned.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]


======================================================================




                            A P P E N D I X

                             July 11, 2012

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 11, 2012

=======================================================================

      
                    Statement of Hon. Mac Thornberry

      Chairman, Subcommittee on Emerging Threats and Capabilities

                               Hearing on

              The Future of U.S. Special Operations Forces

                             July 11, 2012

    Today we gather to examine the future of Special Operations 
Forces. The accomplishments of SOF over the past decade in 
fighting terrorists have been remarkable. While I believe too 
much information about what they do and how they do it has been 
publicized, the American people generally and especially those 
of us charged with more detailed oversight stand in awe of 
their professionalism and dedication.
    But none of us can afford to rest on our past 
accomplishments. The world changes and threats continue to 
evolve. The days and years ahead will see new challenges and 
tight budgets. So it is appropriate to examine how Special 
Operations should evolve to ensure that our Nation's security 
is protected. Congress has a key role to play in that 
evolution, and I know that members of both sides of the aisle 
are committed to playing a constructive role in shaping those 
changes.

                  Statement of Hon. James R. Langevin

   Ranking Member, Subcommittee on Emerging Threats and Capabilities

                               Hearing on

              The Future of U.S. Special Operations Forces

                             July 11, 2012

    Thank you, Mr. Chairman, and thank you to our witnesses for 
appearing before us today. Our Special Operations Forces are 
some of the most capable personnel in high demand throughout 
our military. For a fraction of the Department of Defense's 
total budget, SOF provides an outsized return on our 
investment. For the last decade, the bulk of their capabilities 
have been rightly absorbed by necessities in Iraq and 
Afghanistan. But now, with our combat troops out of Iraq and 
our drawdown in Afghanistan well under way, it seems 
appropriate to consider what the future holds for SOF.
    While SOF have been an integral part of conflicts in the 
CENTCOM area of responsibility, I think it's fair to say that 
some of the other combatant commands have had to accept 
compromises in their SOF support for some time. As Admiral 
McRaven at U.S. Special Operations Command and the rest of the 
Department of Defense goes through a rebalancing process, it is 
critical for those of us in Congress to make sure SOF is 
properly manned, trained, and resourced for future demands. 
This is particularly important because special operations 
forces are perhaps best known for their direct action 
missions--the bin Laden raid being a prime example. But their 
broad set of missions range from unconventional warfare and 
foreign internal defense to civil affairs and information 
operations, among others, and in recent years some of those 
skills may have atrophied. Put another way, our special 
operations forces are critical to our efforts to build the 
capacity of our partners around the globe, enabling those 
partners to apply local solutions to local security problems 
long before they become a regional or global issue.
    We have many issues to consider to ensure that our special 
operations forces maintain their historic reputation as agile 
and highly effective national security assets. I look forward 
to hearing our witnesses' views on how to ensure that we 
continue to populate our Special Operations Forces with 
superior quality men and women who are highly trained, properly 
equipped, and granted the authorities needed to continue their 
stellar contribution to our national security, particularly 
given the highly uncertain threat landscape of the future. Mr. 
Chairman, I thank you for holding this hearing, and I look 
forward to an interesting discussion. 
[GRAPHIC] [TIFF OMITTED] 75150.001

[GRAPHIC] [TIFF OMITTED] 75150.002

[GRAPHIC] [TIFF OMITTED] 75150.003

[GRAPHIC] [TIFF OMITTED] 75150.004

[GRAPHIC] [TIFF OMITTED] 75150.005

[GRAPHIC] [TIFF OMITTED] 75150.006

[GRAPHIC] [TIFF OMITTED] 75150.007

[GRAPHIC] [TIFF OMITTED] 75150.008

[GRAPHIC] [TIFF OMITTED] 75150.009

[GRAPHIC] [TIFF OMITTED] 75150.010

[GRAPHIC] [TIFF OMITTED] 75150.011

[GRAPHIC] [TIFF OMITTED] 75150.012

[GRAPHIC] [TIFF OMITTED] 75150.013

[GRAPHIC] [TIFF OMITTED] 75150.014

[GRAPHIC] [TIFF OMITTED] 75150.015

[GRAPHIC] [TIFF OMITTED] 75150.016

[GRAPHIC] [TIFF OMITTED] 75150.017

[GRAPHIC] [TIFF OMITTED] 75150.018

[GRAPHIC] [TIFF OMITTED] 75150.019

[GRAPHIC] [TIFF OMITTED] 75150.020

[GRAPHIC] [TIFF OMITTED] 75150.021

[GRAPHIC] [TIFF OMITTED] 75150.022

[GRAPHIC] [TIFF OMITTED] 75150.023

[GRAPHIC] [TIFF OMITTED] 75150.024

[GRAPHIC] [TIFF OMITTED] 75150.025

[GRAPHIC] [TIFF OMITTED] 75150.026

[GRAPHIC] [TIFF OMITTED] 75150.027

[GRAPHIC] [TIFF OMITTED] 75150.028

[GRAPHIC] [TIFF OMITTED] 75150.029

[GRAPHIC] [TIFF OMITTED] 75150.030

[GRAPHIC] [TIFF OMITTED] 75150.031

[GRAPHIC] [TIFF OMITTED] 75150.032

[GRAPHIC] [TIFF OMITTED] 75150.033

[GRAPHIC] [TIFF OMITTED] 75150.034

[GRAPHIC] [TIFF OMITTED] 75150.035

[GRAPHIC] [TIFF OMITTED] 75150.036

[GRAPHIC] [TIFF OMITTED] 75150.037

[GRAPHIC] [TIFF OMITTED] 75150.038

[GRAPHIC] [TIFF OMITTED] 75150.039

[GRAPHIC] [TIFF OMITTED] 75150.040

[GRAPHIC] [TIFF OMITTED] 75150.041

[GRAPHIC] [TIFF OMITTED] 75150.042

[GRAPHIC] [TIFF OMITTED] 75150.043

[GRAPHIC] [TIFF OMITTED] 75150.044

[GRAPHIC] [TIFF OMITTED] 75150.045

[GRAPHIC] [TIFF OMITTED] 75150.046

[GRAPHIC] [TIFF OMITTED] 75150.047

[GRAPHIC] [TIFF OMITTED] 75150.048

[GRAPHIC] [TIFF OMITTED] 75150.049

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 11, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. 1) How do we deconflict and coordinate such 
capabilities within SOF from existing or nascent capabilities elsewhere 
in the Department of Defense and the intelligence community, and ensure 
proper oversight?
    Ms. Robinson. There is a pressing need for a classified analysis of 
the mission, size and expenditure of organizations with overlapping 
missions to determine whether their roles and missions are clearly 
delineated, properly coordinated or at least deconflicted, and to some 
degree redundant. Such an analysis would look at potential redundancies 
as well as synergies between SOF and the CIA's Special Activities 
Division and DIA's DCS and CIA's NCS.
    As established by law, the intelligence committees conduct 
oversight of intelligence activities and covert activities for which a 
presidential finding has been issued under Title 50, while the armed 
services committees conduct oversight of military activities and 
activities conducted by the military that are not covered by a Title 50 
finding. Because the subject involves both military and intelligence 
entities, ideally such a study would have joint sponsorship by the 
HPSCI and HASC. In addition, members who sit on both committees have a 
unique ability to assess this issue comprehensively on an ongoing 
basis, and this membership might be harnessed in a more systematic 
fashion.
    Historically, the main body of the CIA has believed its core 
mission is to collect intelligence rather than to conduct covert 
action. In practice, there seems to be a need for some resident covert 
action capability at CIA. The question is whether the missions and 
needed capability and capacity of the paramilitary SAD should be more 
clearly delineated. My observation from the field, while limited and 
anecdotal, is that coordination and unity of effort among the SAD and 
military units can be improved. While individual tactical units may 
work well together, there is no mechanism to ensure deconfliction at a 
minimum, or harmonization of effects, or even synergistic operations in 
the context of an overall campaign plan or strategy. SOF theater and 
national mission forces have taken an important step by establishing 
their first unified SOF command in Afghanistan, but the CIA's 
counterterrorism mission occurs in close proximity to SOF's without any 
similar coordinating construct. The CIA, of course, is not in the 
military chain of command.
    On the military side, the armed services committees should and 
presumably are exercising their oversight responsibilities fully with 
regard to special access programs that do not fall under Title 50. The 
intelligence responsibilities of the military under Title 50 are quite 
extensive and oversight of these activities will presumably increase 
with the creation and expansion of the DCS at DIA. The degree to which 
redundancies between DCS and CIA's NCS may be created is an issue that 
should be examined. Battlefield or military intelligence requirements 
vice national or strategic intelligence requirements provide a starting 
point for deconfliction, but in practice this line can be difficult to 
draw. The past decade has demonstrated the effectiveness of closer 
collaboration between intelligence collectors and analysts and special 
operations forces. SOF operators are to some degree collectors, and 
operational preparation of the environment is a necessary part of 
special operations. Steps have been taken to deconflict the human 
source management issue, but this is only one aspect of the increasing 
overlap between special operations and intelligence activities. A 
comprehensive independent evaluation would help policymakers and 
legislators assess the requirements and organizational implications.
    Mr. Langevin. 2) Is SOCOM properly resourced to meet its current 
demands? In what ways will we need to adjust this resourcing as forces 
draw down in Afghanistan and begin to meet other demand signals for SOF 
capabilities?
    Ms. Robinson. The current USSOCOM budget request for FY2013 of 
$10.4 billion represented a slight decrease from the FY2012 $10.4 
billion spending level. While some additional savings may be found at 
the margins, the likely high ongoing demand for SOF to meet irregular 
threats in a cost-effective manner warrants maintaining the approximate 
current budget level.
    However, a rebalancing of resources within the USSOCOM budget is 
advisable. My preliminary conclusion from the past 12 months of my 
Future of SOF study is that a resource shift of at least 25% will be 
required, as well as organizational reorientation, to fully optimize 
what USSOCOM commanders have called ``the indirect approach.'' 
Rebalancing existing USSOCOM resources to achieve this optimization, 
rather than providing additional resources, is the preferred option 
given the current fiscal constraints. While overall force levels in 
Afghanistan are declining, the requirement for SOF in Afghanistan is 
still unknown, pending specific decisions by U.S. policymakers and the 
government of Afghanistan pursuant to the Strategic Partnership 
Agreement announced in May. If SOF are to continue a foreign internal 
defense mission in addition to a counterterrorism mission, the levels 
of SOF required in Afghanistan could remain in the 7,000 range for some 
years. The unified SOF command (SOJTF) should be migrated to lower 
echelons to eliminate separate SOF commands; in addition the pooling of 
SOF lift and ISR represents a more cost-effective employment of SOF 
assets.
    The demand signal for unilateral surgical strike missions will 
likely decline in the years ahead, but is likely to be more than 
matched by demand for employment of SOF in indirect or special warfare 
missions. (ADM McRaven has noted in testimony to Congress that there is 
unmet demand from other AORs as CENTCOM has absorbed up to 85% of 
deployed SOF in the past decade.) Savings from reduced surgical strike 
missions are required to address shortfalls in intellectual capital, 
organizational structure and personnel development to employ SOF in an 
indirect manner for sustained effect. USSOCOM and TSOC organizations 
and personnel can be reassigned and/or replaced with quality personnel, 
enablers, resources, and intellectual capital out of existing resources 
to fully optimize the indirect approach. In particular, the deputy 
commander of USSOCOM (who is to be designated as the lead for the 
indirect approach and TSOC optimization) may require significant 
organizational structure to provide the needed USSOCOM support and 
oversight to TSOCs as they grow and enhance their capability to perform 
their doctrinal duties of planning and conducting special operations 
and providing effective advice to the geographic combatant commander. 
Here is a brief list of what DCOM USSOCOM may need: USSOCOM should 
create a robust structure under the DCOM to support the indirect 
approach with campaign planning support, resource coordination, and 
advocacy and interface at the policy and interagency level and with the 
geographic combatant commands and country teams to ensure SOF are used 
in sustained campaigns for maximum impact rather than tactical and 
episodic effect. This should be accomplished by repurposing current 
manpower and funding. However, since only 28% of USSOCOM have the 
requisite special operations expertise, the number of active and 
retired SOF should be increased and key positions coded for SOF 
experts. Furthermore, additional USSOCOM personnel should be 
permanently assigned to TSOCs.
    Finally, the SOCOM NCR structure would seem to fall most 
appropriately into this organizational restructuring. As I understand 
the plan, USSOCOM IATF personnel will be shifted to the SOCOM NCR over 
time at no net increase in expense or staff. These Washington-based 
USSOCOM personnel can collaborate with interagency partners in 
developing proposals and plans and monitoring execution but should not 
be seen as supplanting the policy deliberation and decisionmaking 
process, which falls under the purview of the civilian policy structure 
at OASD SOLIC and the IPC, DC, PC interagency process. Ongoing 
interagency coordination may be more easily accomplished in Washington 
than in Tampa, but USSOCOM should scrub its organizational plan to 
ensure efficiency and eliminate redundancy. The JIATF-NCR and SOCOM-NCR 
with its SID might be integrated into one streamlined organization 
tasked to support the full range of special operations missions.
    An additional potential redundancy could be the MARSOC plan to 
develop organic CS/CSS capability. While lift is always in short supply 
for theater SOF, most of the ``enabler'' needs should be met by the 
conventional forces. They have been traditionally reluctant to split 
off small elements of enablers to support SOF distributed operations, 
but the fiscal imperatives and the likely future high demand for small-
footprint operations makes it essential for all conventional forces to 
build in the flexibility to produce scalable support for the full range 
of SOF missions. This is one subset of the larger issue of integrating 
SOF and conventional force operations that might be a subject of future 
hearing to provide Congress with greater insight into both the demand 
for and the difficulties encountered in providing ``enablers'' such as 
lift and ISR, ``thickeners'' such as additional infantry, and blended 
SOF-conventional commands to conduct large-scale or hybrid irregular 
campaigns. SOF cannot operate without conventional support, and many of 
the demands for small-footprint missions can best be met by a 
combination of SOF and conventional forces. At a minimum, Congress 
should follow this issue closely to ensure that critically needed 
advances in SOF-conventional integration occur.

    Mr. Langevin. 3) How do we deconflict and coordinate such 
capabilities within SOF from existing or nascent capabilities elsewhere 
in the Department of Defense and the intelligence community, and ensure 
proper oversight?
    Dr. Lamb. Complex counterterrorism missions require deconfliction, 
coordination and oversight, but none of these requirements is easily 
achieved. Some observers are concerned that military units are 
conducting classified missions usually carried out by civilian 
intelligence organizations without the benefit of well-established 
oversight mechanisms, and also that civilian intelligence organizations 
are trying to conduct paramilitary operations without the clear chain 
of command and support necessary for success. Operating under current 
system constraints, a case-by-case approach is the best way to 
deconflict defense and intelligence capabilities. We need a 
collaborative interagency process for mission analysis that accurately 
identifies the capabilities required for mission success. If both the 
intelligence and defense communities share information and 
decisionmaking processes for this purpose it should be possible to 
determine whether the mission is best pursued using covert tradecraft 
that is the specialty of the intelligence community, or direct action 
capabilities (i.e. traveling quickly to and from a target and 
neutralizing all opposition to that effort) that are the specialty of 
the defense community, or some combination of both. Once it is clear 
whether mission requirements are predominantly intelligence or defense-
based, a lead organization can be assigned responsibility and other 
organizations can support the effort. Congress can examine whether or 
not this collaborative mission analysis and assignment process is 
happening, and if so, whether it is happening frequently enough.
    If the mission requires a combination of covert tradecraft and 
military action, as many counterterrorist missions do, it is preferable 
that the two communities work closely together. Reportedly much 
progress in defense and intelligence cooperation has been achieved 
since 9/11, but the standing presumption should be that both the 
intelligence and defense communities will be tempted to ``go it alone'' 
even when the mission arguably requires capabilities from both 
communities. Each community also may be inclined to duplicate 
capabilities resident in the other, thereby generating risks that can 
compromise mission success. Trying to build resident capabilities that 
are not consistent with an organization's core mission can dilute the 
focus on core competencies and, over time, degrade them. For example, 
some are concerned that covert tradecraft has diminished in the 
intelligence community since 9/11 as the CIA emphasizes paramilitary 
operations. Relying on more accessible but hastily assembled and less 
proficient secondary capabilities can compromise mission success. For 
example, in the past some military units have tried to conduct 
intelligence operations without sufficient expertise and achieved poor 
results.
    Oversight of deconfliction and coordination efforts is admittedly 
difficult in current circumstances. The United States government does 
not have an authoritative process for command and control of missions 
requiring the combined efforts of multiple departments and agencies of 
the executive branch. Only the President has the authority to integrate 
the efforts of departments and agencies, and he does not have the time 
to do so. At the risk of flippancy, the President is ``commander-in-
brief.'' His management of any given national security mission is 
seldom sustained and never comprehensive. It is virtually impossible on 
a day-to-day basis for the President to control how departments and 
agencies cooperate or fail to do so, so responsibility for any given 
mission often remains ambiguous. Interagency committees and other 
bureaucratic ``confederations'' cannot be held accountable for results 
because they have no authority to direct departments and agencies to 
take action. Mission critical cooperative action can be spurned and 
later justified as beyond the mandate of any given department or 
agency. Alternatively, under loosely defined ``lead agency'' norms, it 
might be possible for operators in the field to take actions with the 
presumption that a combination of legal authorities granted to 
different agencies permits it. Such cooperation is laudable and can be 
effective, but it also can obscure clear identification of the decision 
chain that authorized the actions. Either way, oversight and 
accountability can be weakened. The absence of a mechanism for the 
President to delegate his executive authority for integrating the 
efforts of departments and agencies on priority missions is a major 
shortcoming in the way our national security system functions. If 
Congress passed legislation that gave the President authority to 
formally delegate his integration powers, it would improve 
transparency, accountability and oversight for complex, high-priority 
interagency missions.
    Congress also should collaborate across organizational boundaries 
in order to provide effective oversight of complex counterterrorism 
missions. In the same way the departments and agencies of the executive 
branch must assess mission requirements to assign mission leads, the 
House and Senate Intelligence Committees and House and Senate Armed 
Services Committees should collaborate to assign oversight of those 
missions and to decide whether in certain cases it makes sense to 
exercise congressional oversight jointly.
    Mr. Langevin. 4) The Joint Interagency Task Force-South (JIATF-
South) is frequently mentioned as a blueprint for how agencies across 
the U.S. Government and partner nations can work together to facilitate 
security objectives. Could this be replicated and used as a model for 
theater special operations forces, particularly those units engaged in 
long-term missions to build partner capacity?
    Dr. Lamb. I believe theater special operations forces (SOF) can 
apply some aspects of the JIATF-South model to improve interagency 
cooperation in pursuit of long-term missions to build and exercise 
partner capacity to defeat unconventional threats. Historically our 
security assistance partnerships with other nations have been 
compromised by unrealistic assessments of what the host nation can 
absorb; inadequate interagency coordination of the effort; 
unwillingness to tolerate the lesser degree of control such an indirect 
strategy dictates; poor supporting coordination at the regional level; 
and inadequate long-term commitment. The stellar model of interagency 
cooperation pioneered by JIATF-South would be more likely to address 
these challenges effectively. Interagency security assistance teams 
with embedded theater SOF personnel could, I believe, achieve better 
results at significantly less cost than our current approach.
    However, this assertion requires a few caveats. The results the 
security assistance teams could achieve while working primarily through 
host nation forces would likely be less immediate and more ambiguous 
than the results achieved by JIATF-South's interdiction of drug 
smuggling. The teams also would be smaller and less enduring than the 
JIATF-South model. They might more closely resemble the small 
interagency train and equip program used in the Balkans in the mid-
1990s, which effectively operated out of Washington but had elements 
working in country as well. They would ramp up and actively partner 
with the host nation until it was effectively engaging the irregular 
challenge and then ramp down and eventually stand down. They would not 
need to be large permanent structures like JIATF South or the National 
Counterterrorism Center.
    To work well, they would require some of the benefits JIATF-South 
has, to
include:

        <bullet>  A mandate from senior authorities that gives a high 
        priority to the interagency mission and organization;
        <bullet>  An end-to-end approach to mission management that 
        focuses on outcomes, not inputs;
        <bullet>  A long-term commitment from national command 
        authorities that is bipartisan and consistent;
        <bullet>  A deep appreciation for and sensitivity to the 
        missions and equities of partnering organizations; and
        <bullet>  A clear source of resources, with steady provision 
        being more important than absolute levels.

    Moreover, the Department of State would have to support the team 
the way SOUTHCOM supports JIATF South, which would allow the 
interagency security team semi-autonomy to pursue its mission as it saw 
best while operating under the country team's broad supervision. If 
these conditions were met, I believe we could expect better results 
with smaller overall efforts, along the lines of what SOF, working with 
other agencies, was able to achieve in Colombia prior to the terror 
attacks on 9/11 and more recently by working closely with the 
Philippine government.
    Mr. Langevin. 5) Is SOCOM properly resourced to meet its current 
demands? In what ways will we need to adjust this resourcing as forces 
draw down in Afghanistan and begin to meet other demand signals for SOF 
capabilities?
    Dr. Lamb. Overall, I believe USSOCOM has been well resourced to 
meet its responsibilities. Even though U.S. forces have withdrawn from 
Iraq and are set to ramp down in Afghanistan, SOF will continue to be 
heavily engaged. For this reason we should safeguard the overall level 
of resources provided to SOF for the immediate future. However, as 
requirements evolve, the distribution of those resources should as 
well. As many sources, including SOF leadership, have argued, in the 
future we should expect SOF to focus more on an indirect approach to 
tackling irregular threats. Accordingly, distribution of resources to 
SOF programs should demonstrate a shift in emphasis to indirect 
capabilities. In particular, more resources should be shifted to the 
U.S. Army Special Operations Command. It is responsible for Special 
Forces, Civil Affairs, Military Information Support forces, among other 
things. All of these units can play critical roles when SOF adopt an 
indirect approach where they working with and through host-nation 
forces to accomplish their missions.
    Here are some ways resources could be redirected to improve 
indirect capabilities:

        <bullet>  Resource Theater Special Operations Commands so they 
        can better facilitate interagency collaboration; for example, 
        by absorbing the costs of database integration and shared 
        intelligence.
        <bullet>  Accept reductions in some of the specialized hardware 
        and intelligence support that enables theater SOF to track 
        enemy movement. Instead, invest these resources in security 
        assistance activities that would allow Special Forces to 
        partner more closely with host nation personnel.
        <bullet>  Invest in rebuilding Special Forces language and 
        cross-cultural skill sets applicable to parts of the world 
        other than Iraq and Afghanistan.
        <bullet>  Consider standing down some of the fourth battalions 
        added to Special Forces Groups and using the personnel for 
        other purposes. Instead of deploying more as Special Forces 
        teams the personnel could enter longer periods of training 
        where they would have more family time but also could regain 
        eroded skill sets. They also could be assigned to the Special 
        Forces Regional Support Detachments where they would be 
        available for special assignments in embassies and in support 
        of other activities that better enable SOF indirect action.
        <bullet>  Improve the ability of military information support 
        forces (which used to be called psychological operations 
        forces), to support SOF indirect approaches. Military 
        information operations require mastering persuasive 
        communications skills as well as in-depth knowledge of 
        indigenous attitudes and motivations. USSCOM needs to work on 
        better selection and training for these valuable personnel.
        <bullet>  Transfer responsibility for the Human Terrain System 
        from the Army's Training and Doctrine Command to the U.S. Army 
        Special Operations Command, which should then invest in 
        improvements to ensure Human Terrain Teams are able to support 
        indirect approaches with socio-cultural knowledge.

    Redirecting resources within USSOCOM to better balance SOF direct 
and indirect approaches will help ensure these two compatible but 
different SOF approaches, skills sets and cultures are equally robust 
and can work together in harmony without one dominating and distorting 
the other. At the same time it will be important to ensure SOF does not 
expend resources on capabilities and missions that are better performed 
by General Purpose Forces. One possible concern in this regard is the 
movement of security assistance from a collateral SOF mission, which 
was true before 9/11, to a core mission following 9/11. USSOCOM is now 
the designated joint proponent for Security Force Assistance, a 
development that requires monitoring. On the positive side, by Joint 
Doctrine, USSOCOM recommends the most appropriate forces for a security 
force assistance mission. On the down side, the USSOCOM lead might 
become an excuse for General Purpose Forces to ignore the security 
assistance mission, which would be quite disadvantageous. SOF will need 
to continue partnering with General Purpose Forces on security 
assistance or it could easily be overwhelmed by the mission and its 
resource implications.

    Mr. Langevin. 6) How do we deconflict and coordinate such 
capabilities within SOF from existing or nascent capabilities elsewhere 
in the Department of Defense and the intelligence community, and ensure 
proper oversight?
    Dr. Davis. Going forward, after the tremendous successes that U.S. 
SOF have achieved in operational settings over the years, there is 
great danger that SOF will emerge as the ``go to'' force for military 
tasks that could be undertaken by General Purposes Forces (GPFs) or 
even other capabilities in the Interagency tool kit. To ensure that SOF 
remain ``Special'' it will be necessary to refine their core 
competencies and perhaps reduce their ``roles and missions.'' In 
looking at the list of SOF core activities, it is apparent that 
activities to support missions are conflated with mission-tasking 
themselves. Moreover, this list was generated before the events of 9/11 
and, therefore, needs to be reassessed to meet the requirements of a 
vastly different security-planning environment. For example, of the SOF 
core activities listed, at least five are missions that can be 
performed by SOF as well as GPFs. These five include:

        <bullet>  Counter-Insurgency (COIN) operations;
        <bullet>  Counter-Proliferation or Combating Weapons of Mass 
        Destruction (C/WMD);
        <bullet>  Counter-Terrorism (CT);
        <bullet>  Civil Affairs (CA); and
        <bullet>  Information Operations (IO).
    The seven remaining core activities are SOF competencies but might 
be conceived differently to meet new planning requirements. 
Accordingly, they might be considered as:

        <bullet>  Direct Action (DA);
        <bullet>  Special Reconnaissance (SR);
        <bullet>  Military Information Support Operations (MISO), to 
        include PsyOps, Strategic Communications and some aspects of 
        Cyber warfare and Computer Network Operations;
        <bullet>  Building Partner Capacities (BPC), which could 
        include Foreign Internal Defense (FID), aspects of 
        Unconventional Warfare (UW) and Security Force Assistance 
        (SFA);
        <bullet>  Stability Operations, which could include CA;
        <bullet>  Support to GPF Operations in conventional theaters; 
        and
        <bullet>  Specialized Missions as tasked by the National 
        Command Authority (NCA).

    In terms of mission deconfliction two areas need further 
clarification. The first is that of Security Force Assistance and 
Security Assistance, which is also a function of Security Cooperation 
and is a shared mission objective across the Interagency. The tools for 
implementing Security Cooperation activities are many and varied, 
coming from different agencies as well as from across the military 
forces. So far as the Department of Defense (DOD) is concerned, 
security cooperation is the essence of preventive planning, and yet it 
is among the first of the GPF accounts to be cut in difficult budget 
environments. Moreover, to be effective, security cooperation requires 
sustained engagement with partner forces, and that is oftentimes a 
luxury that the GPFs do not have, particularly in the current setting 
as our overseas basing infrastructure contracts and at a time in which 
the GPFs are predicating much of their planning on rotational 
engagements and periodic exercises. In some instances, the engagement 
strategies of the Services are comprised of exercises and training that 
have long been on the books and which embody episodic activities. As a 
result, they are not the kind of persistent activities that U.S. SOCOM 
has long sponsored and implemented through its Joint Combined Exchange 
and Training (JCET) exercises--which originally were created to train 
U.S. SOF, but have been ``hijacked'' by the Combatant Commanders as a 
critical aspect of their engagement strategies because, in part, DOD 
and State are at odds over who ``owns'' the security assistance role. 
DOS has the lead, but more often than not has had to depend on DOD to 
perform the missions because it has the resources, training, and 
personnel to do these things. Thus, in my view, especially as SOCOM 
emphasizes the greater importance of Indirect Lines of Operation in its 
global force planning, the military should be given the authority to 
lead, especially in the train and equip and building partner capacity 
mission sets. To facilitate this, however, SOCOM would need, as the 
designated lead to synchronize the SFA missions in DOD, multiyear 
authority that allows SOF to train partner security forces and to 
implement minor MILCON projects, as appropriate and feasible to support 
this general mission tasking.
    Moreover, because the emerging strategic environment features 
global, networked threats, SOF will have to operate between GCC seams 
and with an ability to deconflict national mission force employments 
with those of theater SOF and GPFs. This implies the need for greater 
and enhanced intelligence fusion, technologies to deconflict disparate 
battlefield activities and an ability to operate with partners--
traditional SOF allies and nontraditional partners, which may include 
nonmilitary security forces and international organizations. NATO SOF 
has created a technology called BICES--the Battlefield Information 
Collection and Exploitation System, which operates with firewalls to 
keep U.S. intelligence classified, but enables partner forces to act on 
time sensitive information. Perhaps BICES should be considered for use 
outside of NATO. There is a precedent for this as it is currently being 
used by ISAF in Afghanistan and with non-NATO partners.
    The second area of mission deconfliction that needs further thought 
is that between SOCOM and CIA activities. Traditionally, CIA forces are 
postured for covert missions, while SOF conduct clandestine and other 
missions for which deniability is not an issue. This is not a bad 
formula in my view. Both need to operate seamlessly in specific 
theaters and they will need to synchronize planning and deconflict 
force employments when focused on a particular theater or engagement. 
Thus, there is a need to work together, train together, and operate 
synergistically based on common procedures and techniques, which can 
only be achieved if SOF and CIA forces collaborate closely to achieve 
common ends and endeavor to understand each other's cultures. In this 
context, SOCOM's efforts to assign SOF to Interagency partners is 
important and with the CIA, in particular, the need to share and fuse 
intelligence is critical to operational success. Beyond this, a new 
assessment of our 1947 national security structure surely is long 
overdue. The world has changed since it was put into effect and the 
nature of the challenges that we face require cross-Agency, whole-of-
government approaches.
    Mr. Langevin. 7) Similarly, NATO Special Operations Headquarters is 
a potential model for future engagement. Are its benefits replicable in 
other regions, and if so, are there regions suitable for similar 
centers in the near- to mid-term? What lessons from NSHQ partner 
capacity activities can SOCOM apply globally?
    Dr. Davis. I definitely believe many of the lessons the NSHQ has 
learned are applicable to Admiral McRaven's Regional SOF Coordination 
Center (RSCC) construct. That said, obviously, there are a handful of 
``lessons-learned'' that are unique to the NSHQ as it operates in the 
NATO environment, and working initiatives through the NATO process. The 
NATO SOF HQs has benefited the United States in several ways. First, 
and very importantly, it is a force multiplier that allows NATO SOF (in 
ISAF) to assume tasks that U.S. SOF would have had to implement had 
they not been deployed. Second, the NSHQ, with its Professional 
Military Education (PME) programs and development of NATO SOF doctrine, 
tactics, and procedures, has contributed to building partner capacity 
in and for NATO and in this way has promoted interoperability, allowing 
alliance and partner forces to operate seamlessly in Afghanistan. 
Third, the point about fostering partner relationships is very 
important, as the NSHQ has relationships with NATO SOF and non-NATO 
partner countries, such as Jordan and Australia, as I noted in my 
opening remarks. Fourth, with its creation of the BICES network, the 
NSHQ has facilitated the sharing of information, which has led to 
intelligence fusion in support of operational units in Afghanistan. 
And, finally, the NSHQ is reaching out to Interagency and other 
partners to foster a comprehensive--or what we call a whole-of-
government--approach to security planning. Indeed, General Clapper is 
one of the godfathers of the BICES network and outside of the Alliance, 
the European Union (EU), Interpol, and the U.S. Drug Enforcement Agency 
(DEA) have participated in some NSHQ classes or
activities.
    The answer to your second question is yes. I believe that the NSHQ 
construct, even absent a NATO-like Alliance umbrella, can be used in 
other regions to promote U.S.-regional partner SOF collaboration, to 
build partner capacities, and to develop a basis for allied/partner 
interoperability, including in multilateral settings. The priorities 
from my perspective are: the Asia-Pacific region, Africa, the Americas, 
(to include U.S. NORTHCOM and SOUTHCOM), and the Middle East. As to 
your third question, what lessons can be applied from the NSHQ 
experience to other regional theaters, a number of specific ideas come 
to mind. First, among the most valuable attributes of the NSHQ is its 
capacity to facilitate networking among Special Operations Forces. 
This, in turn, contributes to building trust and confidence and in so 
doing demolishes obstacles that often get in the way of national 
bilateral or multilateral military planning. The experience of the NSHQ 
in this regard transcends the NATO alliance and it is shared between 
NATO allies and non-NATO partners. Using the Regional SOF Coordination 
Center (RSCC) construct, the NSHQ experience can be replicated in other 
theaters, even without a NATO-like umbrella. In many countries, SOF 
organizations face similar challenges--resourcing, for example--and the 
capacity to interact with similar organizations experiencing similar 
issues is a source of support that can go a long way toward building, 
refining, and honing SOF capabilities and planning. The RSCC construct 
would also support and facilitate SOF interaction with nonmilitary 
security forces and with national and transnational intelligence 
organizations, which in turn, can and would support operational 
planning.
    A second lesson that can be universally applied is that the NSHQ 
has become a repository for cumulative knowledge and lessons-learned 
from operational experiences. Everyone brings his own unique 
experiences to an endeavor, and the ability to understand and 
appreciate that experience means that SOF can build multiple options to 
achieve their own asymmetric advantage over enemies. It also means that 
SOF can look at alternative courses of action to address everything 
from training, meeting, mentoring, or assessing engagements. The value 
of multicultural understanding is increased when one exists in a 
multicultural environment. A third area in which the NSHQ has excelled 
and which should be replicated in other theaters is the development of 
a data bank of capabilities and skill sets that can be tapped as 
situations dictate. Nations possess some unique skill sets or unique 
``kit'' that may be unknown to its U.S. counterparts until engaged in 
multinational forums. For instance, the NSHQ recently hosted a SOF 
medical conference that led to a greater understanding of another 
nation's medical breakthrough, and ultimately access to that capability 
for the benefit of U.S. deployed forces. Finally, the NSHQ-offered 
Staff Officer courses in the classroom environment allow nations to 
discuss lessons learned from operations--and also how to maximize 
effects from limited assets. What this really means is that a course of 
instruction allows for the sharing of best practices for employing 
aviation or ISR assets, sharing data (computers, phone data, other 
material) obtained on an objective, and mapping relations through a 
database (which is ultimately accessible to others). Notable in this 
regard, the NSHQ spearheaded the introduction of biometric enrollment 
and ``technical exploitation operations'' into NATO SOF training (and 
ultimately employment), and the information and intelligence collected 
on an objective is now introduced into a common database, accessible to 
all U.S. forces and agencies. Ultimately, troop success, force 
protection, and speed of operations are significantly enhanced, but 
data is also available to U.S. and other nation law enforcement 
agencies, thereby increasing the level of protection afforded citizens 
of those nations.
    Mr. Langevin. 8) Is SOCOM properly resourced to meet its current 
demands? In what ways will we need to adjust this resourcing as forces 
draw down in Afghanistan and begin to meet other demand signals for SOF 
capabilities?
    Dr. Davis. Going forward, resourcing for SOCOM is highly dependent 
on U.S. strategic guidance, the level of U.S. involvement in 
Afghanistan after 2014, and the extent to which changes are made to 
SOCOM's global posture. If the United States retains a force presence 
in Afghanistan after 2014, much of that commitment will likely come in 
the form of SOF deployments. This will mean the need to continue to 
resource SOF deployments in that theater, as well as resourcing SOF 
operations in areas of instability, such as Mali, Yemen, and in 
Southeast Asia, not to mention in areas of emerging ``threats'' and to 
counter looming challenges. Without sequestration, SOCOM's budget 
requests for the next fiscal year and beyond in the FYDP should be 
adequate to oversee the rebalancing of Indirect Action Missions with 
Direct Action capabilities, the redeployment of CONUS-based SOF 
overseas, and the development of the RSCC concept in key regional 
theaters. If sequestration kicks in, then all bets are off, and SOCOM, 
like the other Combatant Commands and DOD more generally will have to 
make difficult choices and assign priorities. This could, conceivably, 
take a toll on the Admiral's desire to augment Indirect Action 
strategies and lines of operation. It might also impact professional 
military education (PME) and the quality of life of SOF personnel, as 
rotational deployments are more likely to be relied on to meet mission 
taskings. The minor MILCON funding that SOCOM is requesting to 
implement the RSCC vision and to support other regional needs would 
probably be at risk in such an environment, and this would also hamper 
the Commander's ability to support national taskings in situations/
environments that are not considered crucial to U.S. national interests 
at the moment.
    Again, depending on what the U.S. does with respect to Afghanistan 
after 2014, SOCOM may experience capability gaps in the forms of 
critical mission enablers in areas outside of Afghanistan. The most 
significant of these are likely to be helicopters and ISR capabilities. 
I fear that this will become an even more difficult shortfall as the 
Services downsize and make economies in their force postures. As for 
SOCOM's assumption of combatant command authority over the Theater 
Special Operations Commands (TSOCs) in peacetime, SOCOM would not need, 
nor is requesting additional funding. (Moreover, the Commander does not 
want to take Executive Agency (EA) for the TSOCs. This would be a 
burden that the Command could not handle. EA authority has been and 
should remain the responsibility of a Service, which has the resources, 
base support, and money, etc. to perform this tasking.) What would be 
helpful would be SOCOM's ability to fund the MFP-11 aspects of the 
TSOC--something that now is not being done. This is a question of 
authorities and interpretation, not of additional resourcing per se. 
Here, as I noted in my testimony, multiyear funding for 1208 Train and 
Equip activities would be helpful, as it would for 1206 and 1207 
accounts more generally. Most of the authorities under which U.S. SOCOM 
operates are focused on the counterterrorism mission set. Funding for 
short, episodic engagement that does not provide the persistent 
presence required to build SOF partner units capable of handling 
regional issues without significant U.S. support will not work well for 
the Indirect Strategy envisioned by SOCOM. This is why Congress should 
consider very seriously Legislative Proposal 308. Legislative Proposal 
308 would enable SOF partner building, empower the TSOCs, and provide 
SOCOM with the authority to manage resources across AORs.

                                  <all>

</pre></body></html>
